<html>
<title> - AIRLINE DELAYS AND CONSUMER SERVICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   AIRLINE DELAYS AND CONSUMER SERVICE

=======================================================================

                                (110-73)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
38-169                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Brown, Steve, Senior Vice President for Operations, National 
  Business Aviation Association..................................    42
Cohen, Roger, President, Regional Airline Association............    42
Forrey, Patrick, President, National Air Traffic Controllers 
  Association....................................................    42
Gribbin, D.J., General Counsel, U.S. Department of 
  Transportation, accompanied by Mr. Samuel Podberesky, Assistant 
  General Counsel for Aviation Enforcement & Proceedings.........     6
Hanni, Kate, Executive Director, Coalition for an Airline 
  Passengers' Bill of Rights.....................................    42
May, Jim, President and CEO, Air Transport Association...........    42
Mitchell, Kevin, Chairman, Business Travel Coalition.............    42
Principato, Gregory, President, Airports Council International 
  North America..................................................    42
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     6
Sinha, Agam N., Senior Vice President and General Manager, Center 
  for Advanced Aviation System Development, Mitre................     6
Sturgell, Hon. Robert A., Acting Administrator, Federal Aviation 
  Administration.................................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Braley, Hon. Bruce L., of Iowa...................................    68
Cohen, Hon. Steve, of Tennessee..................................    72
Costello, Hon. Jerry F., of Illinois.............................    73
Graves, Hon. Sam, of Missouri....................................    83
Matsui, Hon. Doris O., of California.............................    86
Mitchell, Hon. Harry E., of Arizona..............................    89
Oberstar, Hon. James L., of Minnesota............................    93

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brown, Steve.....................................................    99
Cohen, Roger.....................................................   105
Forrey, Patrick..................................................   123
Hanni, Kate......................................................   140
May, James C.....................................................   145
Mitchell, Kevin P................................................   164
Principato, Greg.................................................   169
Scovel, III, Hon. Calvin L.......................................   179
Sinha, Agam N....................................................   244
Sturgell, Robert A...............................................   264

                       SUBMISSIONS FOR THE RECORD

Rahall, II, Hon. Nick J., a Representative in Congress from the 
  State of West Virginia, a statement from Pamela Foley of 
  Scottsdale, Arizona............................................    96
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation, ``Actions Needed to Minimize Long, On-Board 
  Flight Delays,'' report for the Office of the Secretary of 
  Transportation from the Inspector General......................   200
Sinha, Agam N., Senior Vice President and General Manager, Center 
  for Advanced Aviation System Development, Mitre, responses to 
  questions from the Subcommittee................................   257
Sturgell, Hon. Robert A., Acting Administrator, Federal Aviation 
  Administration:

  Response to question from Rep. Coble...........................    29
  Responses to questions from the Subcommittee, and subsequent 
    information for clarification................................   275

                        ADDITIONS TO THE RECORD

Air Carrier Association of America, Edward P. Faberman, Executive 
  Director, written statement....................................   278
House of Tutors, Anjum Malik, written statement..................   282
Travelers Aid International, Raymond M. Flynt, President and CEO, 
  written statement..............................................   283

[GRAPHIC] [TIFF OMITTED] T8169.001

[GRAPHIC] [TIFF OMITTED] T8169.002

[GRAPHIC] [TIFF OMITTED] T8169.003

[GRAPHIC] [TIFF OMITTED] T8169.004

[GRAPHIC] [TIFF OMITTED] T8169.005

[GRAPHIC] [TIFF OMITTED] T8169.006

[GRAPHIC] [TIFF OMITTED] T8169.007

[GRAPHIC] [TIFF OMITTED] T8169.008

[GRAPHIC] [TIFF OMITTED] T8169.009

[GRAPHIC] [TIFF OMITTED] T8169.010

[GRAPHIC] [TIFF OMITTED] T8169.011



                  AIRLINE DELAYS AND CONSUMER SERVICE

                              ----------                              


                     Wednesday, September 26, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:40 p.m., in 
Room 2367, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] Presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all Members, staff and everyone to turn all 
electronic devices to off or vibrate. The Subcommittee is 
meeting today to hear testimony on airline delays and consumer 
issues. Before we begin, I would ask unanimous consent to allow 
our new Member of our Committee, Ms. Laura Richardson from 
California, to participant in the Subcommittee hearing today. 
Without objection, so ordered. I will give an opening 
statement, and we will recognize the Ranking Member, who I just 
passed on the floor a minute ago, and he is on his way over 
here. But I will begin with my opening statement. I will 
recognize Mr. Petri for an opening statement, and then we'll 
begin with our first panel. I welcome our witnesses here today 
and everyone here today to this Subcommittee hearing on airline 
delays and consumer issues.
    The first half of 2007 has been the worst for airline 
delays since the Bureau of Transportation Statistics started 
keeping comprehensive statistics 13 years ago. Through July, 
almost one in every four flights were delayed. Long, on-board 
tarmac delays have increased by almost 49 percent from 2006 and 
delays of five hours or more have increased 200 percent. The 
delays and the increasing number of consumer complaints that 
passengers experienced this summer are unacceptable.
    Today's hearing is the second in a series of hearings that 
this Subcommittee will hold. We will hold at least one hearing 
every quarter, every 3 months to determine what the airlines 
and the FAA are doing to address this problem. The public needs 
to know what this administration has done and what it plans to 
do in the near term to address delays and consumer complaints. 
No doubt, the reasons for delays are many, and clearly weather, 
particularly summer storms, are a major factor. But there is 
also evidence to suggest that operational, technological and 
economic trends and choices within the airline industry are 
factors.
    Oddly enough, while delays have increased, systemwide total 
airport operations have actually decreased by about 11 percent 
since the year 2000. The decline in total operations has been 
driven largely by a 17 percent decline in general aviation 
operations, contrary to what the airlines would have us 
believe. However, while commercial operations remain flat, they 
have also become more highly concentrated in certain areas, 
increasing in some of the Nation's largest and busiest 
airports. For example, according to the FAA, operations at New 
York's JFK airport have increased 27 percent from 2000 and 44 
percent from 2004.
    Today we will hear additional analysis from MITRE, that 
operations at seven large hub airports that account for 72 
percent of the delays have increased 10 percent since the 
summer of 2000, while operations at 38 other airports have 
decreased. Two weeks ago, the former FAA administrator, Marion 
Blakey, acknowledged that airline scheduling was a problem when 
she stated, and I quote, "the airlines need to take a step back 
on the scheduling practices that are at times out of line with 
reality...And if the airlines won't address this voluntarily, 
don't be surprised when the government steps in."
    Last week I was pleased that the FAA notified the airlines 
that it wanted advance schedule information on JFK and Newark 
for the summer of 2008 because of increasing operations and 
deteriorating on-time performances at those airports. But the 
question is, why didn't the FAA take action on this long ago, 
as to requesting scheduling information, when they acknowledge 
that overscheduling was a serious problem and many acknowledge 
that, including the FAA? The FAA in fact predicted that the 
summer of 2007 was going to be the worst on record. 
Administrator Blakely stated in May of 2007 that 2006 was, "a 
record year for delays with more than 490,000 flights that 
didn't make it on time. The truth is 2007 isn't looking any 
better."
    The fact is that, in February, this administration put 
forward a very controversial financing proposal for which there 
was absolutely no agreement or consensus. The FAA's plan 
generated intense opposition from both sides of the aisle in 
Congress and within the industry. Its only real support came 
from the airlines. Throughout the summer months, the FAA failed 
in its responsibility to hold airlines responsible for what we 
are now being told are, "scheduling practices that are at times 
out of line with reality."
    Looking forward, Congress, the FAA and the industry must 
take a hard look at airline scheduling practices. Where 
overscheduling is resulting in serious delays, the government 
must step in and take action. We should also have a frank 
discussion about what near-term relief realistically can be 
provided by new technology.
    For the last year, this administration has aggressively 
promoted the Next Generation Air Transportation system plan to 
justify its financing proposal. While everyone agrees that we 
must modernize our air traffic control system and supports 
NextGen, I caution the administration not to continue to build 
false expectations by holding the Next Generation system out as 
a solution for delays in the near future. NextGen is a long-
term solution. We will not see full benefits from core NextGen 
technologies like automatic dependent surveillance broadcast 
for several years.
    The traveling public should not be given the false 
impression that NextGen will be here soon or will address 
problems in the short term. And the public should not be 
expected to wait several years for results. The airlines and 
the FAA must take action to address the problem now. I think it 
is important to point out, over the last 4 years, this 
administration has underfunded the FAA's capital account, the 
primary vehicle for modernizing the National Airspace System, 
roughly $2 billion below the congressional authorized level. As 
a result, a number of ATC modernization initiatives were 
cancelled and deferred, including some NextGen capabilities. 
There has been definitely a serious disconnect between the 
administration's rhetoric and reality. HR 2881, the FAA 
Reauthorization Act of 2007, provides about $1 billion more for 
FAA's capital account than the FAA said it would need for the 
next 4 years. This additional funding will help accelerate Next 
Generation related activities.
    Finally, the DOT IG, who will be testifying on our first 
panel here this afternoon, released a report yesterday. The 
IG's report has many important recommendations stemming from 
its investigation into an American Airlines incident in 
December of 2006 and a JetBlue incident in February of 2007. I 
am interested in hearing more from the Inspector General on his 
report. While I believe DOT is making a good faith effort in 
dealing with consumer issues, it is not moving fast enough. For 
this reason, I am pleased that HR 2881, the FAA Reauthorization 
Act of 2007, which passed the House last Thursday, addressed 
many of the IG's recommendations. We have a serious problem 
with congestion and delays in our aviation system which in turn 
affects passengers and the quality of air carrier service. We 
must look at all options for reducing delays and improving the 
aviation experience. With that, I want to again welcome our 
witnesses today. I look forward to hearing the testimony of 
both this panel and the second panel.
    Before I recognize Mr. Petri, the Ranking Member of the 
Subcommittee, for his opening statement, I ask unanimous 
consent to allow 2 weeks for all Members to revise and extend 
their remarks and to permit the submission of additional 
statements and materials by Members and witnesses. Without 
objection, so ordered. With that, the Chair now recognizes Mr. 
Petri for his opening statement.
    Mr. Petri. Thank you very much, Mr. Chairman.
    Well, as expected, it was a long, hot summer. We had a 
record number of passengers and a record number of flight 
delays in the United States. This year has been a particularly 
difficult one for air travelers. It was not all doom and gloom. 
If you flew out of Oakland, San Francisco, San Diego, Atlanta, 
Las Vegas or Houston, you enjoyed an improved on-time 
performance rate from 2006. Unfortunately, every other major 
airport suffered worse on-time performance rates this year.
    According to the Bureau of Transportation Statistics, 
through July 2007, 27.8 percent of flights were delayed. Most 
of these delays were out of control. In fact--out of our 
control. In fact, so far this year, weather has accounted for 
41 percent of the delays and cancellations. While we can't 
control the weather, we can develop and put in place improved 
technology, approaches and processes to better deal with severe 
weather events.
    As we discussed during the Subcommittee hearing in April, 
high profile incidents in New York and Dallas and others since 
then have also brought attention to long flight delays on the 
tarmac and how airline passengers are treated during these 
delays. These incidents, while extremely rare, raise important 
concerns about how the industry and the FAA can safely and 
efficiently operate our National Airspace System.
    The first responsibility of government and industry clearly 
is the safety of the passenger. Because most of these causes of 
long delays, such as weather, are out of human control, it is 
important to consider the steps that the industry has and can 
take to mitigate the effect of delays on their customers. Over 
the last 8 years or so, the Department of Transportation's 
Office of the Inspector General has been active in 
investigating and evaluating major delay events. As a result of 
these efforts, the airline industry has voluntarily adopted 
recommendations made by the Inspector General, however in 
varying degrees of effectiveness.
    Additionally, shortly after the February ice storm incident 
in New York, Secretary Peters asked the office of the Inspector 
General to review and evaluate the most recent major delays and 
report its findings. That report was issued yesterday, and I 
look forward to hearing from the Inspector General about both 
the findings and recommendations included in the report. The 
FAA reauthorization bill passed by the House does include 
various airline consumer rights provisions, and I look forward 
to working with my colleagues in both the house and in the 
Senate to address the issues as we move toward conferencing the 
bill.
    At the end of the day, major delay events painfully 
demonstrate the ever more critical need to modernize the 
Nation's Air Traffic Control System. The unfortunate reality is 
that long tarmac delays are really just a tip of the iceberg. 
With the anticipated growth in operations over the next 10 to 
15 years, these type of delays will not be limited to days 
where there is severe weather. They might become the norm 
rather than the anomaly. Therefore, I believe Congress must 
focus its attention on ensuring the transformation of the Air 
Traffic Control System. I thank all the witnesses for the 
effort that went into their testimony and for appearing here 
before the Subcommittee today to share your concerns and your 
points of view. And with that, I yield back the balance of my 
time.
    Mr. Costello. The Chair thanks the gentleman.
    And at this time, I would recognize the Ranking Member of 
the Full Committee and then we'll come to our first panel.
    Ranking Member of the Full Committee, Mr. Mica.
    Mr. Mica. Thank you. Thank you, Mr. Costello. And I 
appreciate your holding this hearing. I Chaired the 
Subcommittee for some 6 years, and we faced some of the same 
issues that we continue to face with delays. And it is our 
responsibility to make certain that people that are trapped on 
some of these flights and in fact, I am not sure, can I request 
this study? The Secretary did. But I know we requested reports 
back, and I have also asked FAA to come up with some sort of a 
standard for taking care of passengers who do get stranded for 
an inordinate period of time. That is part of our 
responsibility.
    Let me just make a couple of quick points. We have heard 
the Ranking Member mention--we have heard that weather accounts 
for 41 percent of the delays. And then I have seen in some of 
the air traffic control holds that are placed, about 78 percent 
of those are due to weather. So weather plays an important part 
in causing these delays. And we don't want a situation like, I 
guess, a crash in Thailand during a storm. We want to make 
certain that every caution is taken to deal with weather, which 
can have a devastating and tragic effect. And we have an 
incredible record of safety with the measures that we put in 
place.
    Sometimes folks are delayed in our system, but we pay close 
attention to one of the primary causes of aviation 
catastrophes. We do have--we have identified some of the 
problems. Some of the problem is Congress and also the 
administration in acting. Even with NGATS, the Next Generation 
airspace, the highest, best technical equipment, aircraft still 
can only be spaced so closely. You can only land so many planes 
per hour. And most of the schedules that are developed today in 
our high congestion airports and hubs are absolutely maxed out 
during maxed times, and stretching some of that out might be 
part of the answer. We have given some relief for DOT to act as 
an arbiter. In some areas, it has worked well. In Chicago and--
so again, Congress and DOT have the responsibility to deal with 
overscheduling.
    Let me just say a couple of commonsense things that we can 
do. Another one is, I sat on a plane not too long ago for 2 
hours in Orlando due to thunderstorms and a storm coming over. 
And you learn something new, Mr. Costello, in this business 
every day, even with all the information we have. I saw workers 
looking out the plane. And the ramp workers were all working, 
but the plane that I was on--it happened to be US Air--was not 
being serviced. And we sat there and sat there. Then I saw 
other planes being loaded, and we sat there.
    And I said, well, is this some sort of a work rule for 
folks to check in on? I thought maybe this was some labor 
negotiated thing that they don't work during this. I found out 
that is not the case, that every airline has their own policy. 
And that is something else, a commonsense approach that we 
could take. Now, what was instituted I am told is because some 
ramp workers were killed that work for a particular airline, 
each has put in their own rules. But because of liability, in 
fact, we have concerns, and they should be addressed. We don't 
want anyone in danger. But the lack of some standardization in 
this or some backup protection for those who move forward, 
keeps planes on the ground and further exacerbates the 
situation.
    And finally, I was surprised to learn that the Chairman of 
the Committee has asked for a holdup on the airspace redesign 
in the greater New York area that we have been working on for 
10 years. A redesign can result in 20 percent better on time, 
particularly with weather. We have waited 10 years, and now we 
find that that is being, in fact, delayed again for an 
additional look-see at this GAO report. So there are just some 
sensible commonsense approaches I think that we can take to 
speed up this process and stop the delays. Thank you.
    Mr. Costello. I thank the Ranking Member for his comments.
    And at this time, I will introduce our witnesses today on 
the first panel. We welcome all of you: Mr. Robert Sturgell, 
Bobby Sturgell, who is here, who has been here many times 
before, he is the acting administrator, one of many hats that 
he has worn over the past few years for the FAA; Mr. D.J. 
Gribbin, who is the general counsel for the U.S. Department of 
Transportation; the Honorable Calvin Scovel, who is the 
Inspector General of the U.S. Department of Transportation; Dr. 
Agam Sinha, who is the senior vice president and general 
manager for the Center of Advanced Aviation System Development, 
MITRE. And I understand that you are here to answer any 
questions, Mr. Samuel Podberesky, who is the assistant general 
counsel for aviation enforcement. How did I do there on your 
name?
    Mr. Mr. Podberesky. Close.

     TESTIMONY OF THE HONORABLE ROBERT A. STURGELL, ACTING 
   ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION; MR. D.J. 
 GRIBBIN, GENERAL COUNSEL, U.S. DEPARTMENT OF TRANSPORTATION, 
ACCOMPANIED BY MR. SAMUEL PODBERESKY, ASSISTANT GENERAL COUNSEL 
FOR AVIATION ENFORCEMENT & PROCEEDINGS; THE HONORABLE CALVIN L. 
      SCOVEL, III, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
 TRANSPORTATION; AND AGAM N. SINHA, SENIOR VICE PRESIDENT AND 
     GENERAL MANAGER, CENTER FOR ADVANCED AVIATION SYSTEM 
                       DEVELOPMENT, MITRE

    Mr. Costello. Close? Okay. Well, the Chair would now 
recognize the Honorable Robert Sturgell, the acting 
administrator under the 5-minute rule. We would ask--inform all 
witnesses that your entire testimony will be submitted for the 
record. We would ask you to summarize it so we can have plenty 
of time for Members to ask questions.
    Mr. Sturgell.
    Mr. Sturgell. Good afternoon. And thank you, Chairman 
Costello, for the privilege of addressing you, Mr. Petri, and 
other Members of the Subcommittee, regarding delays and how 
they affect the consumer.
    I can understand the frustration of the flying public, 
having experienced delays this summer myself. But first and 
foremost, the National Airspace System is as safe as it has 
ever been. Over the past 20 years, general aviation accidents 
have dropped by one-third and commercial aviation itself is in 
the golden age of safety. Inefficiencies, delays in particular, 
is another matter. More people are flying more than ever and 
more smaller planes are carrying them.
    Compounding this, the FAA's current system of taxes and 
fees provides little incentive to use the airspace efficiently. 
Aviation today is a deregulated system where the government 
does not create or control airline schedules. The passenger 
wants choices, and choices fill up schedules. Competition 
created by deregulation has also resulted in lower ticket 
prices for the traveling public. But when passengers arrive at 
the airport and see that a dozen flights are supposed to leave 
all at the same time, they know it is not going to happen.
    Commercial traffic has returned in different ways after 9/
11. Delays are up 20 percent since last year and almost 30 
percent since the summer of 2000. We have seen dramatic 
increases in traffic in several major markets. High performance 
business jet traffic has grown rapidly as well, up 43 percent 
between 2000 and 2006.
    The system is busy. And regrettably, the bad news here is 
that delays will likely only get worse. Take-offs and landings 
will grow by 1.4 million per year through 2020. And JFK alone, 
as the Chairman pointed out, had a 44 percent increase in 
activity since 2004. In the summer of 2000, the big delays came 
from seven big airports: Kennedy, La Guardia, Newark, 
Philadelphia and then Atlanta, Chicago and Houston. These seven 
airports at the time accounted for 55 percent of the delays. 
Since 2000, operations of these airports have grown an 
additional 10 percent, and they now account for 72 percent of 
delays systemwide.
    With respect to delays, our policy is always to try to grow 
capacity and improve efficiency, to reduce delays through 
pavement procedures and technology first. And we do that before 
interfering in the market. And I want to emphasize that we do 
not endorse deregulation. We will do, however, what is 
appropriate to make the system operate safely and efficiently. 
So, we are taking this issue head on.
    For example, airspace delays have become a bigger and 
bigger problem in the New York area. And, as you know and 
pointed out, we just issued a direct record of decision, a 
culmination of more than a decade's worth of work for airspace 
redesign in that area. It will reduce delays by 20 percent, and 
it is also environmentally friendly, cutting CO-2 emissions by 
430,000 pounds per year. We have got a dozen short-term 
operational initiatives underway in New York since the 
beginning of the year.
    I am pleased to say we are installing the ASDE-X system at 
JFK by July of 2008. That is a full year ahead of the planned 
deployment. And that is going to help us improve safety and 
surface traffic management at that airport. Complementing the 
airspace redesign is the runway work at Philadelphia. A new 
runway in 1999 and a current extension project underway now is 
going to cut delays again by another 3 million minutes per 
year. I think everyone knows last May we opened a new runway in 
Atlanta, the world's busiest airport. The runway commissioning 
coincided with airspace redesign that resulted in a 30 percent 
increase in capacity. We have a redesign of the airspace effort 
underway in Houston. And of course, you know we have imposed 
temporary short-term caps at Chicago's O'Hare, which we plan to 
lift as they bring on additional capacity.
    As we move to the Next Generation, satellite based system, 
we are also changing navigation procedures in Atlanta and 
around the country to increase efficiency and reduce delays. 
Nationally, we have implemented 180 area navigation (RNAV) 
procedures for arrivals and departures with 42 more by the end 
of the year. It has enabled us to add another 10 arrivals per 
day at Hartsfield, Atlanta. That is a big increase, a savings 
of $34 million in time and fuel.
    The third way to address delays and increase efficiency is 
with technology. The problems we see in New York and other 
parts of the system are a reflection of the limitation of 
today's system of air traffic control. They will only get worse 
with time. So, in the longer term, alleviating delays does 
require the technological transformation that will come with 
NextGen, and it is happening now with things like these RNAV 
and RNP procedures.
    The larger issue, how it gets paid for, is still in the 
balance. With our authorization set to expire shortly, the 
forward momentum is in jeopardy, and that is a short-term 
issue. In the longer term, I think the failure to link our 
revenue with the operating cost may likely put our major 
capital programs at risk and perhaps slow down the 
implementation. And I am hopeful that we can continue to work 
together in the reauthorization process to address these 
concerns. Thank you.
    Mr. Costello. Thank you.
    The Chair now recognizes Mr. Gribbin.
    Mr. Gribbin. Thank you, Mr. Chairman. Actually the 
department had a joint statement which actually Mr. Sturgell 
delivered.
    Mr. Costello. Very good.
    The Chair now recognizes Mr. Scovel for his testimony.
    Mr. Scovel. Chairman Costello, Ranking Member Petri, 
Members of the Subcommittee, I appreciate the opportunity to 
testify this afternoon. This hearing is both timely and 
important given the record-breaking flight delays, 
cancellations and on-board tarmac delays that air travelers 
have experienced this year. Based on the first 7 months of the 
year, nearly 28 percent of flights were delayed, cancelled or 
diverted with airlines' on-time performance at the lowest 
percentage, 72 percent, recorded in the last 10 years.
    Not only are there more delays, but also longer delay 
periods. Of those flights arriving late, passengers experienced 
a record-breaking average flight arrival delay of nearly 1 
hour. More than 54,000 flights affecting nearly 3.7 million 
passengers experienced taxi-in and taxi-out times of 1 to 5 
hours or more compared to 45,000 flights for all of peak year 
2000. Reduced capacity and increased demand have led to higher 
load factors; 71.1 percent in 2000 to 79.7 percent in 2007. 
With more seats filled, airlines have fewer options to 
accommodate passengers from cancelled flights.
    As you know, Secretary Peters has serious concerns about 
the airlines' treatment of passengers during extended ground 
delays and requested that we examine incidents in which 
passengers were stranded on aircraft for extended periods of 
time. We issued our report yesterday, which includes a series 
of recommendations that the Department, airlines and airports 
can take to improve airline customer service.
    Today I would like to discuss four key points that would 
help to improve airline customer service and minimize long, on-
board delays. First, the airlines should detail their policies 
and plans to minimize long, on-board delays and off-load 
passengers within certain periods of times and adhere to such 
policies.
    The American Airlines and JetBlue events of December 29, 
2006, and February 14, 2007, respectively, underscored the 
importance of improving customer service for passengers who are 
stranded on board aircraft for extended periods of time. On 
those dates, thousands of passengers experienced long, on-board 
delays and, in some cases, for over 9 hours. Although severe 
weather was the primary cause of the delays, it was not the 
only reason those passengers suffered the experience that they 
did. Neither airline had systemwide procedures in place to 
mitigate long, on-board delays and off-load passengers within a 
certain period of time. In fact, prior to the American Airlines 
and JetBlue incidents, only a few airlines had established time 
limits on the duration of tarmac delays. Since these incidents, 
eight airlines have now set a time limit for delays before 
deplaning passengers, but five still have not.
    Second, airport operators should become more involved in 
contingency planning for extraordinary flight disruptions. Our 
examination of 13 airports' contingency plans found that only 
two airports have a process for monitoring and mitigating long, 
on-board delays. This involves contacting the airline after an 
aircraft has remained for 2 hours on the tarmac to request a 
plan of action. All airports intervene only upon an airline's 
request primarily because they do not have authority to 
interfere with a carrier's operations during long, on-board 
delays. In our opinion, airport operators need to be become 
more involved in contingency planning for extraordinary flight 
disruptions.
    Third, there are best practices and ongoing initiatives 
that, if properly executed, should help to mitigate long, on-
board delays in the short term. During our audit, we found 
several practices that airlines and airports are taking to 
mitigate the effects of these occurrences. Among others, these 
include setting the maximum amount of time that passengers will 
remain on board aircraft before deplaning. Also, keeping gate 
space available for off-loading passengers in times of 
irregular operations. FAA has also taken action to minimize 
delays through initiatives such as the Airspace Flow Program. 
This initiative gives FAA and the airlines the capability to 
maximize the overall use of the NAS while minimizing delays and 
congestion. These efforts do not create additional capacity but 
rather limit the negative effects of bad weather.
    Fourth, DOT, FAA, airlines and airports should complete 
actions immediately to improve airline customer service and 
minimize long, on-board delays. DOT should take a more active 
role in overseeing customer service issues involving long, on-
board delays, and there are actions that the Department, the 
airlines, airports and FAA can undertake immediately.
    Specifically, first, all airlines should specify the 
efforts that will be made to get passengers off aircraft that 
are delayed for long periods and incorporate these policies in 
their contracts of carriage and post them on their Internet 
sites.
    Second, airlines should establish specific targets for 
reducing chronically delayed or cancelled flights and disclose 
on-time flight performance.
    Third, large- and medium-hub airport operators should 
establish a process for monitoring and mitigating long, on-
board delays that involves contacting the airline to request a 
plan of action after an aircraft has remained on the tarmac for 
2 hours.
    Four, DOT should investigate incidents involving long, on-
board delays and oversee the airlines' policies for dealing 
with them.
    And five, the airlines, airports and FAA should establish a 
task force to develop and coordinate contingency plans to deal 
with lengthy delays.
    Mr. Chairman, this concludes my statement. I would be glad 
to answer any questions that you or other Members of the 
Subcommittee may have.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
Dr. Sinha.
    Mr. Sinha. Thank you, Mr. Chairman. Good afternoon, 
Chairman Costello, Ranking Member Petri, Congressman Mica and 
Members of the Subcommittee. Thank you for inviting me to 
participate in today's hearings on the airline delays and 
consumer issues.
    Today airlines are transporting more passengers than at any 
time in history but operating fewer flights than in 2000. Yet 
delays in the system are at an all-time high, up 11 percent as 
compared to 2000. This raises the natural question, if 
operations are down across the NAS, why are delays up? The 
answer to this question is location specific. Operations are 
not down everywhere, nor are delays up everywhere.
    I think it was mentioned earlier that, in the summer of 
2000, of the 45 airports, seven airports, Atlanta, Chicago 
O'Hare, Philadelphia, Newark, La Guardia, Houston and Kennedy, 
accounted for 55 percent of the delays. Today they account for 
72 percent of the delays. If you look at the operations at the 
45 airports, operations have decreased by 8 percent while at 
these seven airports they have increased by 10 percent. The 
biggest bottle necks this summer have been at the three major 
New York/New Jersey airports as well as the surrounding 
airspace. I think again it was mentioned earlier, Kennedy's 
scheduled operations have increased by 44 percent. At JFK, more 
efficient procedures have been put in place to make better use 
of multiple runway operations thereby increasing the overall 
traffic at the airport. If not for these procedural 
improvements, delays would have been much worse.
    Many improvements have been made in the system since 2000, 
which provide significant capacity increases and user benefits 
but have not kept pace with the demand at key locations. 
Looking to the future, the FAA's report on capacity needs in 
the National Airspace Systems takes a systematic look at 
current and projected demand and capacity across all airports 
and metropolitan areas. The results show that if all planned 
improvements are implemented by 2015, six airports and four 
metro areas will still have insufficient capacity to meet 
projected demand. By 2025, the situation is worse--even with 
planned improvements, there are projected to be 14 airports and 
eight metro areas that will have capacity constraints.
    Looking at potential solutions, NextGen will provide better 
navigation, surveillance and information sharing and decision 
making than today. Together these capabilities will allow the 
separations between aircraft to be reduced safely. This will 
allow more aircraft to land and depart per hour, reducing 
delays at the majority of the busiest 35 airports in the U.S, 
including Atlanta, Kennedy and Newark. Better surveillance and 
more automation in the cockpit can reduce the dependencies 
between operations on different runways. More precise 
navigation will help to reduce the dependencies between 
operations at different airports in busy metropolitan areas 
such as JFK and La Guardia. NextGen does allow more uses of 
existing runways at more than half of the top 35 airports and 
might create new opportunities for construction of additional 
runways at existing airports because of reduced separation 
requirements between runways.
    More efficient use of the airspace would also facilitate 
greater use of secondary airports in the major metropolitan 
areas that might address a lot of the metropolitan area 
constraints that are identified in the FAA report. Better 
weather data together with cockpit display of traffic 
information will reduce traffic disruption due to poor weather 
conditions, leading to what are termed equivalent visual 
operations in the NextGen concept. We know for example that 
today in visual conditions we do not have as much of a problem 
as we do in the instrument conditions. So this will allow us to 
operate more like visual conditions most of the time.
    Movement on the airport surface will be improved through 
ASDE-X, ADS-B and cockpit display of traffic information. 
Around two-thirds of the top 35 airports are likely to benefit 
from improved surface traffic management in terms of improved 
safety and reduced fuel consumptions. Further analysis of the 
potential benefit of these and other NextGen capabilities at 
the Nation's airports is underway. As a step towards NextGen, a 
number of technologies and procedures have been demonstrated to 
be technically and operationally feasible in both enroute 
airspace and in busy terminal areas. These, called performance-
based ATM or PATM capabilities, are currently being 
incorporated into FAA's operational evolution partnership for 
implementation. Human in the loop validation conducted over the 
past 2 years have shown that these concepts are feasible and 
provide significant benefits in the controller's capability to 
safely handle the expected increase in traffic probably up to 
2016 and beyond.
    In summary, the answer to the question of why operations 
are down and delays are up, is that traffic levels have 
increased at the already congested hubs which have little spare 
capacity and have decreased at other locations which have more 
spare capacity. Local and regional solutions will continue to 
be needed to address capacity problems as they emerge; however, 
a systemwide approach to solving the Nation's capacity needs is 
imperative.
    Finally, successful implementation of all the planned 
improvements at the airports and in the airspace through 
enhanced automation and procedures for both ground systems and 
avionics are critical in meeting the demand in the near term 
and for 2025 and beyond. This will require full participation 
from all stakeholders, the FAA, the customers and the 
manufacturers. Mr. Chairman, this concludes my testimony. I 
would be happy to answer any questions the Committee may have.
    Mr. Costello. Thank you, Doctor. Let me ask--I will begin 
with asking a few questions. First, before I do, I think we all 
agree that NextGen is needed. Is there any disagreement on the 
panel? I think we all agree that NextGen is several years away 
and provides no relief or no help in the shortterm. Would we 
agree with that? Everyone on the panel? Mr. Sturgell.
    Mr. Sturgell. Mr. Chairman, I would say that there are 
pieces of what will be, you know, the endgame of NextGen that 
are already being implemented. I mean, the move to a satellite-
based navigation system, RNAV procedures, area navigation and 
RNP procedures are all about satellite-based navigation and 
taking advantage of what is in the airplane. So I think there 
are some things that are being implemented now that are not 
necessarily several years down the road.
    Mr. Costello. And I understand that. But for clarification 
for those who are here and those who may be listening, give us 
an example of what is happening now. ADS-B, whatever it may be, 
that will provide relief in the short term. We have gone 
through the worst summer of delays we have experienced since 
BTS has been keeping statistics. We are about to get the summer 
behind us, but we are going to move into the holiday season 
now. So my question--what I am trying to establish, number one, 
is we all agree that the technology needs to be updated and 
changed. We all agree that NextGen needs to happen. That is the 
reason why, in the House bill that we passed, we provide over 1 
billion more than the administration requested over a 4-year 
period to accelerate NextGen. But we are talking about short-
term solutions here, addressing the problem at hand, and you 
know, I don't want to build false expectations out there with 
the traveling public that, hey, the FAA is going to go out and 
buy something that is on a shelf someplace, implement it and it 
is going to help us by September--the end of September or when 
we get into the holiday season, Thanksgiving and Christmas. 
Isn't it a fact that what we are doing with NextGen will not 
provide relief between now and the end of the year?
    Mr. Sturgell. Probably not to the level we would like, 
given the delays and particularly for the New York area. I 
mean, we do have RNP procedures in New York in those 3 
airports. We are implementing more of those during the coming 
year, and I do think that they are very important. At Atlanta, 
we are getting 10 to 11 more arrivals per hour, more departures 
per hour, and in Dallas, depending on the configuration. That 
is a huge capacity increase at some of these airports.
    Mr. Costello. There is no question that there is relief 
coming in the long term, but that does not help the people who 
will be traveling over the holiday season. What I am trying to 
communicate to them and get everyone to understand is, what are 
we doing short term, and then what are we doing long term? We 
understand what the long-term benefits are of NextGen, and we 
understand that there are steps in between from where we are 
today and when we complete NextGen. And those--all of those 
steps are progress in the right direction. But I would ask Mr. 
Scovel the same question. Do you see anything that the FAA is 
doing in moving toward NextGen that will provide short-term 
relief to the delays in the congestion that we have short-term, 
meaning between now and between the end of the holiday, 
December 31st of this year?
    Mr. Scovel. Thank you, Mr. Chairman. I think Mr. Sturgell 
was correct when he cites RNAV and RNP as very short-term 
initiatives that are in place in specific locations that can 
help the delay problem in those locations. I think when you 
mention the need to set realistic expectations, you are 
absolutely correct. And I think it is also important to note 
that those expectations need to be framed in terms of 
systemwide improvements. While local geographic improvements 
can certainly be obtained. Systemwide improvements are what 
is--makes long-term NextGen most important, certainly to the 
Congress, to the Department and to the traveling public. A 
moment ago, sir, you mentioned ADS-B; it is probably a good 
case in point. It is common knowledge that FAA recently let a 
contract for $1.8 billion for ADS-B. The infrastructure will be 
put in place between now and 2013. At that point, users will 
equip their aircraft with the technology that is required to 
take advantage of that, and they have until 2020 to make that 
change, and it will be at the cost of billions of dollars for 
the airlines. So it is a huge investment.
    Even when we get to 2020, only a part of the full capacity 
enhancements of ADS-B will be available because, at that point, 
it is ADS-B Out rather than ADS-B In. I am not a technician, 
but I can explain in layman's terms what those mean. But the 
bottom-line is, that even in 2020, not all of the full 
capabilities of ADS-B will be realized.
    Mr. Costello. Dr. Sinha, let me ask you. You say in your 
written testimony--and I quote--scheduled demand at Kennedy has 
increased rapidly since June of 2006 as Delta and JetBlue have 
developed their hub operations. Would you please elaborate on 
that and talk precisely about what Delta and JetBlue have done 
at JFK in the last few years?
    Mr. Sinha. I think what we have been seeing when we look at 
the data is, it is not so much over the long run, but it is, 
like, starting from maybe early part of 2006 through 2007. 
JetBlue had operations, something in the order of 265, 247, 
262, in that range daily. But now, today, if you look at this 
July, August, September, it is 358, 364, 336. That is a 
significant increase in the daily operations.
    If you look at Delta, they were going through some 
restructuring of the routes in the January through May or June 
of 2006, and their operations were in the range of 180 to 190 
operations per day. Today they are at 368, 372, 373, 349. That 
is what we mean by what has happened in terms of them 
increasing their operations. Now, how much of it is free-market 
competition? You can judge for yourself.
    Mr. Costello. And it is called competition, right? Okay. 
Mr. Sturgell, and again, this will be my last question. I have 
other Members, and then I will come back.
    Mr. Sturgell, I applauded the administrator for her 
comments concerning scheduling. It is a concern that I have had 
for sometime. We have looked at scheduling. We have sat down 
with some of your people in the FAA, some of the air traffic 
controllers. And there is no question in my mind that there is 
evidence that scheduling during peak periods at certain 
airports, JFK being one, that there are more flights scheduled 
at certain time periods than the system can possibly handle. So 
I was pleased when the administrator acknowledged that. I only 
wish that we would have focused on that back in January or 
February so we could have done something about the travel 
season this summer as opposed to concentrating on next summer. 
However, I am pleased that that action is being taken, and I am 
pleased with your decision or whoever made the decision to tell 
the airlines that you want to see the schedules in advance 
beginning in March of 2008. So in reading the notice that went 
out to the airlines, it is pretty specific. And it seems to me 
that you believe the FAA believes that there are scheduling 
problems at JFK specifically that has caused delays. Is that a 
correct assumption?
    Mr. Sturgell. Yeah. We are looking very closely at the 
scheduling in the New York major airports as you mentioned. 
There are some hours that are above the peak hours in those 
airports.
    Mr. Costello. But the answer is yes. You have looked, there 
is evidence in your opinion that there are some scheduling 
problems, and that is obviously why you have taken this action?
    Mr. Sturgell. We have asked for the schedules, we have. You 
know, it has obviously been a problem. Again, there are some 
parts of the schedule that are above what we believe that 
airport can handle. But in addition to the schedules, there is 
a whole range of things we have been looking at, you know, 
since the beginning of the year. And I know we have talked 
about some of the operational things. We've met with the 
airlines and the Port Authority, since about February of this 
year, and we have been working to implement to help bring 
relief to that area. And scheduling, of course, is one of, you 
know, the many things we are looking at very, very closely.
    Mr. Costello. The last question now before I turn it over 
to the Ranking Member, is that--and I will come back to ask a 
few more questions when we are finished with Members asking 
questions. At this point, can you give any assurance to the 
traveling public that nonweather-related delays, nonweather-
related--you have no control over weather delays, that the FAA, 
that you are taking measures to reduce delays during the 
holiday season and the short-term.
    Mr. Sturgell. We are taking measures to address those 
delays and specifically for the New York area. Some of the 
early things we can do in the airspace redesign is what are 
called fanned departures off of the runways at the airports up 
there, specifically Philadelphia, Newark and then there is a 
new procedure for right turn out of JFK when departing to the 
northwest. The benefit is probably one to three an hour, in 
terms of operations that you can add to the system, and it 
doesn't sound like much, but it will be an impact if we can 
move forward with that.
    Mr. Costello. I thank you, and I will come back shortly. 
The Chair now recognizes the Ranking Member of the 
Subcommittee, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I see that the Chairman of the Full Committee, Mr. 
Oberstar, is here and may want to participate, and I know that 
the senior Republican of the Committee, Mr. Mica, has several 
questions, and I would yield my time to him.
    Mr. Mica. Okay. I think everyone agrees NGATS is not going 
to be instituted or any parts of it really to deal with the 
delays. So we have got two issues here: We have got the problem 
of the delays, and then we have got the problem of dealing with 
people who are held captive on planes for extended periods of 
time. I have got a copy of my letter, April 19th, Mr. Sturgell, 
to the Secretary. The second paragraph: I respectfully request 
FAA develop a policy to determine acceptable procedures for 
extraordinary flight delays, particularly when health, life, 
safety of passengers are at risk.
    Now, the Secretary sent me back a reply in May and said 
that she was waiting on the IG's report, which was expected 
later this summer. Now we get it in the fall today here. IG, 
you have recommended that the Secretary should define what 
constitutes an extended period of time. Do we have that, Mr. 
Sturgell?
    Mr. Sturgell. Mr. Mica----
    Mr. Mica. You just got the report.
    Mr. Sturgell. Right. Just got the report and on behalf of 
the Secretary, I do want to publicly thank the Inspector 
General for the report. She did ask for that report to be 
developed. She has also had a senior task group working on 
these issues.
    Mr. Mica. This is April 19th. This is the 23rd. To get this 
thing rolling to make certain the people are protected on a 
plane, when can I find out when she is going to have that, a 
week, a month, a year? I mean, just something for the record. 
You don't know? Okay. Because we can't deal with the issue of 
taking care of passengers who are stranded. And the other thing 
it says, the Secretary should direct the Office of Aviation 
Enforcement and Proceedings to ensure airlines comply with 
their public policies governing long--so we are asking the 
airlines to develop that, and then you enforce it. But I am not 
sure that is what I asked for. I asked for FAA to come up with 
some standard. I mean, it is nice to have the airlines and then 
use them as the fall guy all the time.
    I asked for FAA to come up with something, and that is what 
I think we need. Our responsibility is life, health, safety. 
Okay. We have identified there are seven airports that account 
for 70 some percent of the delays, right? JFK, Newark, La 
Guardia, all in the same area. O'Hare, we are doing a massive 
redesign of the runways. That will help some. I know 
Philadelphia we have done an extension. Is Atlanta down? We 
just finished that runway. Is Atlanta one of the ones down? Did 
anyone find that? It isn't down? We just added that runway 
capacity.
    Mr. Sinha. It is Houston--Houston is the other one.
    Mr. Mica. But I am getting to----
    Mr. Sinha. Atlanta is on the list.
    Mr. Mica. It is on the list. Okay. My point is, some places 
we can add capacity; some we are adding it, and some we've 
added it. So that should help a little bit. With weather, it is 
still tough because you can only land so many planes. My point 
here is JFK, Newark, La Guardia probably result in the bulk of 
the delays. Wouldn't that be the case? I mean, those three in 
that airspace. Now, the last point I made when I came to make 
my little opening statement was that the airspace redesign can 
result, I was told, in a 20 percent expansion of our capacity 
and capability to handle aircraft and would lessen delays by 
about that percent. Is that agreed, Mr.--I see a yes. Is that 
yes? No?
    Mr. Scovel. Ballpark, yes, sir.
    Mr. Mica. Okay. So again, some of this isn't rocket 
science. But the airspace redesign which we have been waiting 
on 10 years--we had an overwhelming vote in Congress. We had 
Republicans and Democrats. We all said, go forward with that 
northeast quarter, and that would help us. Now, I am told the 
GAO report might have to be interspersed here according to what 
the Chairman has asked for, and I don't know that to even be 
the case, which would further delay that. Is that the case? Is 
there any impediment that you know, Mr. Sturgell, that will 
stop us from doing the New York airspace redesign?
    Mr. Sturgell. We have not received anything formally asking 
us to stop the----
    Mr. Mica. So that can go forward and that--if that goes 
forward on an expedited basis, then we could expect, Mr. 
Scovel, some improvement in delays?
    Mr. Scovel. There certainly would be improvement, Mr. Mica.
    Mr. Costello. I would ask the gentleman to yield. I think 
everyone expects that the airspace redesign as proposed by the 
FAA for the New York airspace, that it will end up in court, 
that there will be litigation. So, I mean, I don't think there 
is any question. I have been out to Philadelphia, and I have 
attended a town meeting, and there is no question that everyone 
expects that a lawsuit will be filed. So, from the standpoint 
of expediting it, there are those of us who would like to see 
that happen. But I think, realistically, we are in for some 
litigation, which is going to take some time to reach a court 
decision.
    Mr. Mica. Again, I have been to hearings and meetings in 
Connecticut and the northeast and Philadelphia and New Jersey, 
and it goes on and on. My point here is, I don't want anything 
to stand--I mean, this isn't rocket science. We can tell where 
the planes are being delayed. They just testified to it. If we 
can move them in the northeast quarter. If we have to put 
something that puts--that jams that threw. We just had an 
overwhelming vote in Congress. But we need to get that airspace 
redesign--it is not like redesigning a highway since 1980. And 
those are our airways, and we can't move planes through. That 
is in the optimum condition. So stop blaming the airlines and 
let us take the responsibility for government not putting in 
place--stop blaming air traffic controllers who do their job. 
We have the ability to move this forward and we should. Thank 
you. Yield back.
    Mr. Costello. The Chair would note that Mr. Petri has 
exceeded his time by 1 minute. The Chair now recognizes the 
gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Sturgell, in your 
testimony on Page 9, you say we encourage our friends in the 
airline industry to re-assess their scheduling with an eye 
towards relieving some strain on the system. You have asked for 
them to start providing schedules in March. What are you going 
to do with those schedules?
    Mr. Sturgell. Mr. DeFazio, along those lines, the airlines, 
we have worked with them at location-specific airports as well 
as broadly. And, I would point out a couple of successes of 
voluntary efforts in that regard.
    Mr. DeFazio. How many failures do we have? We have lengthy 
testimony from the air traffic controllers documenting a large 
number of airports where we have scheduled more aircraft to 
take off during a given number of hours than could possibly 
take off on the best day in history, let alone any 
insignificant limitation due to weather.
    Mr. Sturgell. In the examples of places like Dallas, Fort 
Worth and Atlanta, the airlines voluntarily de----
    Mr. DeFazio. Right. When you have passengers all across 
America, who are being given phony schedules as Mr. May says in 
his testimony, people like frequent departures so the airlines 
schedule them. In the case of Eugene, Oregon, where I live, 
United schedules a lot of departures. And as soon as San 
Francisco gets limited, which it is 30 percent of the time, 
they just cancel or delay all those flights. Yeah, 
theoretically, we are going to leave. If you are a business 
traveler, you know it is a joke to have a ticket on United to 
San Francisco because they are just going to bump your flight 
and bring in the long-range flights. They are overscheduling 
the airport, you know, given the normal conditions at San 
Francisco. That is repeated at other airports throughout the 
system. So there may be a few voluntary success stories on the 
part of the industry, but you are a regulatory and a safety 
agency.
    So, my question is, what are you going to do with the 
schedule--when they give you schedules in March that show they 
have scheduled more departures at a number of airports than can 
take off during a given number of consecutive hours on the best 
day in history, what are you going to do about it? What are you 
going to do at that point? That is the question.
    Mr. Sturgell. Well, addressing scheduling is one of many 
things----
    Mr. DeFazio. I know. I am just trying to deal with one real 
simple factor. We are scheduling more planes to take off and 
land than can physically take off and land. We are allowing 
this to go forward. We are saying the market will control it. 
The market doesn't control it because the airlines aren't going 
to give up their slots because their passengers might go on 
someone else that gives them a fake schedule. The passengers 
aren't informed that you are booking a flight for an hour that 
is overbooked. There will be some planes delayed during that 
hour. What are you going to do when you get the schedules that 
they will propose for next summer if they don't voluntarily 
adhere to the minimum or the maximum number of flights on an 
hourly basis? What actions do you intend to take as a safety 
and regulatory agency with those reports?
    Mr. Sturgell. Mr. DeFazio, we will always ensure the safety 
of the system. But, you know, it is airport, it is airline 
specific. If there are things we can do to address that 
schedule through procedures or new runways that are coming in--
--
    Mr. DeFazio. I am just saying in March when they give you 
the schedules for next summer, and we can't build the new 
runways by next summer, we are not going to change the system 
dramatically by next summer, when we have done everything we 
can do to tweak it, when you know that they have booked more 
flights during given hours to take off than can take off during 
the best day in history at certain airports, what are we going 
to do about that? How are we going to get back to a number that 
is just realistic in terms of the best day in history, let 
alone the inevitable problems that might result? What are we 
going to do at that point? I am just asking about a little part 
of the problem but one that is very frustrating to travelers 
and is repeated time and time again. What are you going to do 
when they give you numbers that show they have scheduled more 
flights than can take off, are you going to somehow say, no, we 
have got to cut this back to the theoretical capacity of the 
airport and somehow get there?
    Mr. Sturgell. I will use Chicago O'Hare as an example. We 
worked with those airlines there, the two major carriers 
voluntarily, voluntarily, and achieved a reduction.
    Mr. DeFazio. So your plan is, in March, when you find 
overscheduling at seven or ten or twelve airports around the 
country, you will bring in all the airlines for voluntary 
meetings to talk about voluntarily changing the schedules. I 
mean, I just had a very disturbing meeting with the head of the 
San Francisco airport yesterday. He said they are heading 
towards dramatic problems 30 percent of the time. As the 
airport director, there is nothing he can do about it, and he 
is hoping someone, somewhere in the system will do something. 
So I am asking you, is there--at that point, if they won't 
voluntarily do something, what can we do? Could we impose a 
congestion tax? Could we at least inform consumers that those 
hours are overbooked, and their flights are likely to be 
delayed if we are going to have market forces prevail?
    Mr. Sturgell. Market forces in terms of congestion, 
management and pricing, we would like to have that option. And, 
it is one of the options we proposed in our reauthorization 
proposal.
    Mr. DeFazio. I am talking about hours that are overbooked. 
If we said this hour is overbooked, if a commercial airline 
wants to book that hour, are they going to pay a special fee 
because it is overbooked.
    Mr. Sturgell. Well, we are certainly interested in 
congestion pricing. And we would willingly work with the 
Congress as our bills go forward.
    Mr. DeFazio. I am still not clear. I am over my time, but 
it is still not clear. So, in March, just to wrap it up, when 
you see that a number of airports are overbooked for departures 
and arrivals, you are going to call in the airlines that 
operate at those airports and ask them to voluntarily get it 
down to at least the theoretical capacity of the airport.
    Mr. Sturgell. Again, going back to O'Hare, we got 
voluntarily reductions. In the end, they were not enough. We 
did a short-term scheduling reduction while we had capacity 
improvements coming on line. If we can get new runways built, 
if we can get procedures changed and operational improvements, 
that should be the goal.
    Mr. DeFazio. Right. We have long-term goals, but I am just 
saying--I am just talking about a very small part of the 
problem. I recognize all those other concerns. Thank you. Thank 
you, Mr. Chairman.
    Mr. Costello. I thank the gentleman. Let me just make note, 
Mr. Sturgell, that the airlines in 1999 said that they would 
voluntarily implement what we know today is a passenger bill of 
rights. It didn't happen. It is one of the reasons why we 
have--we were here today, one of the reasons we put a section 
in the FAA re-authorization dealing with those issues. I think 
this is a simple question that Mr. DeFazio is asking, and the 
question is simply this: If the airlines do with scheduling 
like they did with the passenger bill of rights on a voluntary 
basis and they do not scale back their operations when there is 
evidence at JFK or any other hub in the Nation, will the FAA 
take action? I know that you are going to meet with them. I 
know that you are going to talk about scheduling. I know that 
you are going to encourage them to take a look at scheduling 
and pull back when they schedule too many flights. But the 
question is, if they do not voluntarily act, will the FAA step 
in and act and force them to, as you did in Chicago, as you did 
in La Guardia, as you did at Reagan National Airport?
    Mr. Sturgell. It is one of the options that is available to 
us.
    Mr. Costello. I know it is one of the options, but that is 
not the question.
    Mr. Costello. That is when people are cynical about 
government. Of course, it is one of the options. There are a 
lot of other options, but it is a simple question. I understand 
you are Acting Administrator, and we are not here to beat you 
up. I mean it is pretty simple.
    If they do not act, are you going to?
    Mr. Sturgell. Well, we have used that authority, as you 
pointed out, in Chicago. So it is an option, you know, and we 
have used that authority, the authority we got in the last 
bill.
    Mr. Costello. So that is a "maybe"?
    Mr. Sturgell. At this time, like I said, there are ongoing 
things we are working to implement both from the FAA 
perspective and with the airlines at these, you know, congested 
airports, specifically in New York.
    Mr. Costello. You probably just answered the question that 
some people have when they say, "Why does the government step 
in and mandate an agency to do something?" it is because the 
answer in this case, for instance, is, well, maybe we will; 
maybe we will not. I mean it is in the interest of the 
traveling public that we, in fact, take action, and if you are 
not willing to take it at the FAA, then we have to legislate 
it. With that----
    Mr. Oberstar. Mr. Chairman, would you yield?
    Mr. Costello. I would be happy to yield to the Chairman of 
the Full Committee, Mr. Oberstar.
    Mr. Oberstar. I was following up on your question, Mr. 
Sturgell, and it at least goes to the heart of one of the 
issues of this very complex nexus, and the greatest risk we 
face is oversimplifying the delay issue and saying, "Oh, it is 
here. Oh, it is there. Oh, it is something else."
    If it were rocket science, as Mr. Mica was suggesting, it 
would be easier, frankly. Rocket science obeys specific laws of 
physics, which, when put in place, get our spacecraft up in the 
air and bring them down within fractions of a second. This is 
not rocket science. It is far more complicated, but the 
question that, I think, Mr. Costello was posing is do you have 
authority under existing law to order reductions in schedules 
if those schedules exceed the capacity and if the excess is 
having regional or national effect. If the answer to the 
question is you do and you use that authority at Chicago's 
O'Hare, can it also be extended to the New York region as well?
    Mr. Sturgell. So we do have that authority, as you pointed 
out, and it is available wherever we see that kind of problem.
    Mr. Chairman, as you pointed out, it is complicated. It is 
not easy. The system, itself--you know, you have many times 
eloquently talked about how complex our national airspace 
system is. When we talk about scheduling 1 hour of peak 
overscheduling, when there is a recovery period after that, it 
does not really make a case for moving in and capping an 
airport. So we see those situations at various airports around 
the country. There are only very few airports where it is a 
problem the entire day where there is no recovery. You know, 
some of the things--I keep hedging a little bit. It is an 
option. We are looking at it. It is definitely all of that. You 
know, there is also an impact when you do that, and it is that 
there could, perhaps, be a tendency to lose service to small 
communities, which I know is very important. It takes away any 
incentive to improve capacity in either that particular airport 
or in the region. Folks get happy with the status quo, and with 
the economic engine that the aviation industry is and with the 
benefits to the traveling public, I just think, you know, it is 
a tough situation, and we have to consider thoroughly all of 
what is available to us before making those kinds of----
    Mr. Oberstar. If the Chairman and the other Members will 
indulge me further, to say, "oh, well, it is not an airline 
problem" or "oh, it is not an air traffic controller problem, 
but it is an FAA problem," that does a disservice to everybody. 
We are all in this together. It is a three-legged stool; it is 
airport capacity; it is air traffic control technology, and it 
is airline scheduling.
    Now, in the southern California TRACON, you have 2.4 
million operations a year. That is 50 percent more than the 
entire Paris regional in all of northern France, Belgium and 
the Netherlands combined. The New York TRACON and the southern 
California TRACON handle more air operations than all of Europe 
combined. The New York TRACON handles operations for 45 
airports, four of which are within 10 miles of each other, one 
of which has two runways, 10,000 feet roughly at EWR Newark, 
and has a 900-foot separation.
    So the least bit of inclement weather means you are down to 
one runway, a little more weather and that one runway is down 
to 5-mile spacing. It is not simple. You understand that. That 
is why you have this East Coast plan. Whatever you shift in one 
area has an effect and a consequence on another. I get 
impatient with those who want to oversimplify and thereby 
denigrate the participants in this issue.
    At JFK, you have capacity in the morning because it is an 
afternoon arrival-dependent airport with internationals coming 
in. If there are delays at La Guardia, the effect spreads 
across the entire United States and the entire rest of the East 
Coast. Continental at Newark will not give up a single slot 
until--it may have 55 percent of the operations there, but they 
will not give up a single slot until another airline says, "We 
will do the same."
    We met this issue at DFW when 5 or 6 years ago there was a 
hearing in this Committee, and I think it was Mr. Duncan who 
was Chairing the hearing at the time, and they had 57 
departures all scheduled at 7:00 a.m. Now, they have three air 
traffic control towers at DFW, and they cannot release 57 
aircraft at 7:00 a.m. We know that. Now, it is the one 
authority the FAA has to bring those carriers together and to 
work on filling in the valleys, the slow times of the day, 
spreading it out so that all of the carriers accept some of 
that burden and lowering the peaks so that you have more 
dependable arrival and departure patterns instead of airlines 
scheduling flights at 7:00 a.m. that do not take off until a 
quarter to 8:00 and asking the passengers to buy into the lie.
    Now, the nexus of this issue is evening out the flow, and 
you have a study underway. GAO has a review. The IG has a 
review underway. All we need is for all of you to accelerate 
work on those studies and to get them done as quickly as 
possible, review, have public understanding of and input into, 
and then move ahead with implementation.
    Thank you, Mr. Chairman and colleagues. I appreciate the 
indulgence.
    Mr. Costello. The Chair thanks the Chairman of the Full 
Committee and recognizes Mr. Petri at this time.
    Mr. Petri. Thank you. I just have a couple of questions.
    One, I do not know, Mr. Sturgell or Mr. Scovel, if I can 
put this into context, but in preparing for this, we indicated 
that some 41 percent of the delays in the system, roughly, are 
due to weather conditions.
    Do you have an idea of what percentage of the delays 
overall are probably due to scheduling inspired congestion 
because of overscheduling? How big a problem is this particular 
phenomenon of all of the airlines wanting to have a flight when 
the public wants to travel, obviously?
    Mr. Sturgell. Yes. I do not have that information today, 
Mr. Petri. It is obviously something we will try and put 
together for the Committee. Again, you know, it depends whether 
there are slower periods after peak volumes, how long the delay 
is and how lengthy the delay is, you know, and I certainly 
appreciate the frustration that has gone on with these chronic 
delays, and it is something that the Department's enforcement 
folks have been pursuing for a couple of months now. I just 
want to put up one thing on the weather side that you 
mentioned, though.
    These are weather trends that specifically go to New York, 
and I think, as you look at the graph, the trend in weather 
from last year to this year has gotten a little worse broadly 
across the NAS. We have had problems in particular areas. 
Dallas-Fort Worth, for example, has had some severe 
thunderstorms in the summer months as have a few other pockets 
around the country, but the trend line for New York, as you can 
see, has been very, very severe from 2006 to 2007. You know, 
while the BTS statistics from the Department show 40 some 
percent, our OPSNET delays, which are really focused on the air 
traffic system performance, show weather delays running at 
about 70 percent.
    So, when Chairman Oberstar talks about things like how 
close the runways are together and what happens when the 
weather comes down, yes, it has an impact on the capacity and 
on the efficiency at the airport. Again, going back to RNP and 
some other things we are trying to do with systems like 
Precision Runway Monitor, we are trying to move to have VMC 
arrival rates during, you know, IMC conditions. That is the 
direction the agency is moving in terms of throughput through 
the system, and certainly, the NextGen weather programs will 
help us along that line. Specifically for this summer and for 
New York in particular, it has been very tough.
    Mr. Petri. The general aviation community has said that--
they indicate that there has been a decrease in the number of 
general aviation flights between 2000 and today, and yet, the 
agency says that the general aviation community continues to be 
a contributing factor to delays and congestion now. Could you 
explain that?
    Mr. Sturgell. You know, this is where you need to 
thoroughly look at the data and what types of data you are 
looking at. The business jet community is definitely growing 
very substantially. Overall, though, general aviation 
operations--piston and everybody else--is down some 17 percent 
from where it was several years ago. You know, it is really 
from the aircraft on the general aviation side, the high-
performance flyers, that get up into the system, that take up 
space where we have the commercial aircraft flying as well, and 
then you look at particular airports and particular regions. 
The New York TRACON handles well over 100 airports. It has got 
a fair amount of general aviation traffic as a TRACON. Now, at 
the individual airport at La Guardia, for example, we hold six 
unscheduled slots, you know. So it is not a lot, but it is six, 
you know, and in a place like La Guardia, it matters. So it 
depends on how you dissect the data to reach the various 
conclusions and statements.
    Mr. Petri. Just finally, earlier, Mr. Forrey, from NATCA 
indicated that one contributor to--he thought there were clear 
links between controller understaffing and delays in the 
system. Could you comment on that?
    Mr. Sturgell. Well, I think we have our workforce plan that 
we have been working off of for several years now. I am very 
confident we are going to hit the number again at the end of 
the month here with 14,807 controllers, and we are going to see 
that, by a fair amount, is the way things are shaping up this 
week. That is a net gain of 200 controllers over last year. So, 
I think the system is staffing well.
    Again, Jerry, if you have got--we have got a chart that 
shows operations per controller. You know, if you look at all 
of the broad measures, overtime is running about 1.6 percent; 
the time-on position is running about 5 hours and 1 minute, a 
little bit less on the en route side, a little bit higher on 
the terminal side for operations per controller. If you go back 
to 1999 and 2000, we are still, today, handling less operations 
per controller than we were in 1999 and 2000.
    So, I think the broad measures all show that we are staffed 
and that we are staffed adequately. There are only so many 
positions for a specific facility that you need to staff, and 
again, we are working off of our workforce plan. You know, do 
we have some facilities where it is a bigger issue and a focus 
for it? Sure, but overall, I think we are where we need to be 
in terms of staffing with the controller workforce.
    Mr. Costello. The Chair thanks the gentleman, and 
recognizes now the gentleman from Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    Yesterday, in Memphis, there was an unfortunate incident 
where the air traffic control facility went down for about 2-1/
2 hours. The reportage that I have read about the problem was 
that it was a Bell South, or now AT&T, problem and that our air 
traffic control folk in that part of the country did an 
admirable job, a commendable job, in fact, in maintaining 
safety, which could have been jeopardized.
    Does this incident, Mr. Administrator, indicate to you that 
there is a need for more backup systems or more security? This 
was not a security problem, but do we have security at the 
telephone facilities that, if they were struck, could destroy 
our capacity to have an air transportation system?
    Mr. Sturgell. It was a very significant outage for us, as 
you pointed out. You know, we are still investigating, but at 
this point it is a Bell South-AT&T problem, and of course we 
will be, you know, discussing this with them, as we have been 
since it occurred, to figure out what the problem was and 
whether our system should be routed differently at this 
location and at other places to ensure more redundancy or 
better reliability.
    I would point out that, overall, system outages only 
account for about 1.1 percent of delays, and you know, we are 
running well over 99 percent in terms of our availability for 
NAS equipment, but as you pointed out, you know, there were 
several hundred delays, and we had about 200 aircraft, I think, 
in that airspace at the time. The controllers did a tremendous 
job. We do not see any, at this point, safety issues in terms 
of separation losses. We are continuing the analysis. We are 
also looking at things about what kind of additional things we 
should be providing the workforce at facilities, you know, like 
cell phones, just like we did when we looked at the weather 
radio issue.
    Mr. Cohen. Do you have anything to do--are you the person 
or is it your office that negotiates with the air traffic 
controllers for their contract?
    Mr. Sturgell. Are you talking about the contract towers or 
are you talking about the FAA employee towers?
    Mr. Cohen. Either.
    Mr. Sturgell. Either one? Yes, we have departments within 
the organization that handle negotiating those salaries and 
those programs.
    Mr. Cohen. Doesn't this situation yesterday where human, 
really, heroism to some extent but ingenuity probably saved us 
from having an accident in the skies indicate how important it 
is to have experienced air traffic controllers and to have a 
labor mechanism that provides for the retention of the 
experienced and skilled people who we depended on yesterday to 
save us from a tragedy?
    Mr. Sturgell. Again, our controllers did a great job in 
handling that event yesterday, no question about it.
    Mr. Cohen. And I hope our administrators do a great job in 
appreciating them and in negotiating with them and in seeing 
that they stay on the job.
    Mr. Sturgell. Fair enough.
    Mr. Cohen. Thank you, sir.
    Let me ask you this about regional jets. There has been 
some issue and a lot of studies recently about regional jets 
being a cause of some of our delays. We have got more smaller 
planes and all of them flying with less passengers and taking 
up the same amount of space and the same amount of time for the 
air traffic controllers.
    What is your opinion about regional jets and the problems 
they are causing the American flying public?
    Mr. Sturgell. Well, again, the regional jet industry has 
really taken off, and I think----
    Mr. Cohen. No pun intended, right?
    Mr. Sturgell. Yes, exactly. I think, overall, it is the 
result of, you know, the operators responding to passenger 
needs and wants, and it has proved to be a great business tool 
and a great thing for the traveling public.
    With respect to how it impacts the system, I mean, I think, 
largely these planes have been replacing smaller turboprops, 
and that does a couple of things. Specifically, the turboprops 
generally flew below what would be the typical high-altitude 
environment for your commercial operators. The RJs have the 
capability to do that. So, to some extent, they are up there 
adding to the higher altitude level traffic.
    Mr. Cohen. We are running out of time.
    As they are adding to the traffic, they are causing part of 
the delays, right? So they are not necessarily conveniencing 
the public. Are they not a part of the delay problem? Let us 
say, if we had fewer planes, fewer scheduled flights and more 
people per plane, wouldn't we have the likelihood of less 
delays?
    Mr. Sturgell. I think, obviously, with fewer planes, there 
would probably be fewer delays overall. Again, it depends on 
where those planes are going and whether they are all going at 
the same time or at different times, that kind of thing.
    The other problems it presents to us is that, at some 
runways in the system, we had shorter runways where turboprops 
could land. RJs tend to take up larger landing distances, so 
there is, you know, the impact that they need longer runways 
and might not be able to use these off-load runways that the 
turboprops used to use.
    Mr. Cohen. Thank you, sir.
    Mr. Costello. The Chair thanks the gentleman, and 
recognizes the gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    I am not sure where to begin after listening. My first 
suggestion would be all of the different people who are blaming 
each other for all of the problems come to the table again very 
shortly with a list of suggestions of how "they" the airline, 
"they" the FAA, "they" the controllers could improve the system 
from their point of view.
    It is frustrating for us and for the people at home to 
listen to what is being said here. The FAA can shut down. They 
can control. They can do all kinds of things. If there is a 
golf tournament or a national Republican-Democrat convention 
you take over, but I am not sure that is what we want to do, 
and I understand your frustration in trying to answer that. Let 
us put that aside for a minute.
    If the Chairman would agree, I would sure like to have, as 
soon as possible, those of you involved come back and say, 
"Well, here is what we can do." The airlines are overscheduled 
like crazy. They do not have enough equipment to absorb a 
system delay when weather hits in one spot, and people who are 
inconvenienced and put at risk are sick and tired of that, and 
for the airlines to blame general aviation and other bogus 
straw men is just terrible. It just does not help the 
discussion.
    I want to switch a minute, Mr. Chairman, to the Next 
Generation Air Traffic Control, ADS-B. As I have spent a lot of 
time looking into that from my perspective as a pilot, there is 
a tremendous, a tremendous benefit waiting to be utilized by 
all sectors of aviation. It is not expensive, but we have not 
done a decent job of selling it to the public.
    Now, Mr. Scovel, you pointed out some very pertinent facts. 
I will disagree with the one you said that it will not cost the 
airlines billions of dollars to equip; it will cost thousands 
of dollars to equip, but everybody using the system needs to be 
encouraged to take advantage, and the FAA has done a fabulous 
job in Alaska, putting a system in place, developing it and 
using it. We need to really get on the ball and move down the 
track with that, but the public will not be confused. That is 
not going to eliminate the congestion problem.
    RVSM--we like to throw acronyms around--that has doubled 
the airspace above 29,000 feet. Again, there is only so much we 
can do. I would love to see the Northeast corridor and other 
congested area develop new plans, but we have reached the point 
of diminishing returns. Dan is a pilot. He is looking at me, 
shaking his head, and he is right. There are so many things we 
can do and not do with SIDS and stars. You know, our NAB has 
come and gone. I just wish that we would move forward and let 
people know what is available to us and what is realistic.
    We can stop the delay problem by slowing down the 
overinsertion of airplanes into the system. Mr. Cohen mentioned 
regional jets. That has been a boon to hub and spoke 
operations, but those are the, quote, "business jets" that are 
punching the extra holes in the sky.
    Mr. Chairman, I am having trouble developing a question in 
all of this, but again, I would hope the people who are here 
who have the answers, from their perspective, if they would 
clean up their own little place of business and come back and 
say, "well, we can do this" and somebody else says, "well, we 
can do that," then we could begin to see some significant 
progress.
    Dr. Sinha, you have studied the thing from one end to the 
other. What does MITRE think about how we can develop a more 
cooperative attitude, a cooperative, collaborative whatever, to 
get the problem moving and the public seeing that we are not 
only talking about it but doing something about it?
    Mr. Sinha. Well, the kind of collaboration that we are 
talking about really boils down to people problems. So, I mean, 
the way you framed it, sir, you know, by what does each party 
bring to the table; most of the times we end up in a situation 
that I will bring something to the table if my competitor does 
it, too.
    The question is how do you get past that knot that says 
that it has got to be a joint action by a number of people.
    In fact, theoretically, there has been lots of work done in 
game theory which relates to things like this when one set of 
people are playing games versus the other, and I do not think 
all of the great minds who have worked on that have really 
found an answer. So that is the best answer I can give you.
    Mr. Hayes. Back to the airlines, the FAA does not have any 
compensation right now that I know of, but again, I would sure 
encourage everybody here on this Committee that the Chairman 
and others are anxious to give a better product and to maintain 
the highest level of safety.
    So thank you, Mr. Chairman, for allowing me to, I guess, 
expend, but hopefully it will be helpful.
    Mr. Costello. I thank the gentleman.
    The Chair now recognizes the gentleman from Boston, Mr. 
Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Mr. Hayes, you may think you vented. Watch this.
    Mr. Sturgell, you say you have the power. Tell me why you 
will not just do it.
    Mr. Sturgell. Because there are other things we are working 
on that will help alleviate the problem.
    Mr. Capuano. Well, that really, really helps me while I am 
sitting there waiting for plane that is stuck at La Guardia. 
You talk about recovery time. What about my recovery time and 
that of the hundreds of thousands of Americans who waste hour 
upon hour sitting in an airport waiting for a plane that never 
comes?
    Now, I should not complain, because the airline I fly just 
fixed the whole problem. They now list the flight to Boston as 
an hour and 20 minutes instead of 65 minutes. I do not think 
Boston has moved further away from Washington than it was last 
week, but at least they are telling the truth a little bit 
more, a little bit more.
    I have got to tell you, Mr. Sturgell, that I understand you 
are Acting Director, and to some degree, I am sorry to take it 
out on you but you are the guy today. It is more directed to 
the FAA than to you, personally, and whoever comes into your 
place, whoever it is, I hope they are listening. You are 
embarrassing all of us here. Your agency's failure to act is an 
embarrassment. It is hurting the American business--the 
American economy, the American business flyers--and your 
failure to act and to study the issue has no reasoning to me.
    Why can't you take something and try it in one airport? Go 
to La Guardia and say, "You do one thing." Go to Atlanta and 
say, "You do one thing." If the airlines do not help you--look, 
competition is competition. You might have missed it, but the 
free market is not working on this issue. You are a regulatory 
agency as well, and if the free market does not work, it is 
your responsibility, your obligation as far as I see it, to 
take some action. To tell me to wait for 15 years or to tell me 
that we have an overbooking of 20 flights an hour and you want 
to deal with one to three, that is not an answer, and if you 
think that America is not angry, travel with me. I would love 
to have you sitting next to me on the plane, so when people 
come up to me and say, "Congressman, why aren't you doing 
anything?" I can say, "Hey, he is the guy. Talk to him." 
Explain it to them that you are studying the issue. It is not 
an answer. It is an excuse to kick the can down the street.
    Now, I am not asking you to have an exact answer on every 
issue. I know it is complicated. There is nothing simple in 
this world that I am aware of, but to fail to try to do 
anything is an abrogation of your responsibilities and your 
duties. I do not mean to pick out you individually, but you are 
the FAA today. I am speaking to the entire FAA. If you try 
something and it does not work, stop it and try something new 
or if you try something and the airlines come back and say, 
"Hey, we have a better idea," fine. Stop what you are doing and 
try that. Every flying member of this public knows that what 
you are doing now is not working, and I am a little embarrassed 
that Congress has not forced you to do it, but apparently the 
term "regulation" is like a swear word here in Washington. We 
cannot say that. I am perfectly happy to let the free market 
work, but when it does not work, we have an obligation to step 
in, and I have got to tell you that when I am sitting here 
talking about recovery time, recovery time means nothing to the 
individual who is sitting in an airport terminal or, worse, on 
an airplane.
    I have got to tell you, Mr. Sturgell, that I do not really 
have a question except to beg you and your cohorts at the FAA 
and your successor, whoever the permanent Director is going to 
be, the Administrator, to please do something, anything. Try 
it. If it does not work, stop it and try something else, and if 
you do not have any ideas on what to do to try, ask any number 
of airport directors. Ask any number of people at any airport, 
and you will come up with a few. If we can help you, we are 
happy to.
    You said you have the authority. We know you have the 
authority. The FAA reauthorization bill also has provisions in 
there to allow you to implement different study programs and 
procedures--not just study papers--around this country, and I 
cannot encourage you any more strongly than I just did to do 
something. Quit fiddling while America sits, please.
    Mr. Chairman, I yield back the time that I no longer have, 
I guess.
    Mr. Costello. The Chair thanks the gentleman, and 
recognizes the former Chair.
    Do you want to go to Mr. Coble?
    The gentleman, Mr. Coble, is recognized for 5 minutes.
    Mr. Coble. Thank you, Mr. Chairman.
    It is good to have you gentlemen with us.
    I saw a constituent of mine, Mr. Chairman and gentlemen, 
about 4 or 5 weeks ago at an airport, and he said to me "My 
least favorite activity used to be going to my dentist." He 
said, "I would rather go to my dentist than go to an airport." 
Then he went on--and I am not piling on you guys, but he went 
on to say that--he said, "I would exclusively travel by bus or 
train if it were not for the time consumed."
    This distresses me because I think my constituent voices a 
common complaint shared by thousands. It distresses me because 
the airline industry has served America admirably and, I think, 
still serves us admirably. Plagued with problems, yes, problems 
perhaps for which the airlines are at fault in some cases. We 
are at war against terrorism. That, obviously, is another 
problem, but let me ask you all this:
    If you believe that we in the Congress should consider 
legislation beyond the scope of passenger rights included in 
the recently passed House aviation reauthorization, think about 
that. Give us safeguards that we may implement to ensure that 
we can continue to have a vibrant aviation sector, because if 
we do not continue to have a vibrant aviation sector we are 
vulnerable. We are fragile. We will look forward to going to 
see dentists. That is a sad state. I do not mean to diminish 
the dentist profession--I do not mean to do that at all--but we 
are at the borderline, I think, Mr. Chairman.
    Let me ask you this, Mr. Sturgell, and I will repeat that 
it is good to have you all with us. I know you feel like you 
have targets on your chest, but I think there is no ill will 
intended. I have heard that there is a proposal to develop 
accelerated lines for frequent flyers; that is to say, people 
who fly nine or 10 times a month as opposed to nine or 10 times 
a year. Send them to this lane where they can move along, and 
delays, of course, would be at least diminished. What is the 
story on that or the status on that, Mr. Sturgell?
    Mr. Sturgell. Mr. Coble, I think you are referring to the 
security lines while going through an airport.
    Mr. Coble. Yes.
    Mr. Sturgell. That falls within the jurisdiction of the 
Transportation Security Administration. I do believe there are 
those types of lines, but I cannot say for certain.
    Mr. Coble. I would like to know. Can you tell us in more 
detail about that subsequently?
    Mr. Sturgell. We will follow up with the Committee on that 
answer, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T8169.012
    
    Mr. Coble. All right.
    Mr. Chairman, I repeat that I am not blaming anybody. Well, 
somebody has to be to blame for some of it. Part of it is 
because of the era in which we live, and we are stuck with that 
for the moment, but I appreciate you all being here.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the former Chairman of the Subcommittee, the 
gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    Let me say this. Each of us has about 700,000 bosses, or 
700,000 constituents, always putting pressure on us to do more 
and to do better, and then one of our jobs is to put more 
pressure on the FAA and on the airlines to do more and to do 
better in response to our constituents. So that is sort of 
where we are, but having said that, I think we also should owe 
an obligation to be fair and to tell people that we do have the 
best aviation system in the world, the best airlines in the 
world. Our system and our airlines are the envy of the world. 
Now, does that mean they should not do more and do better? They 
should, but I mentioned here before that it is human nature 
that, if somebody has 100 flights and they have one or two bad 
ones or they have one or two cancellations or one or two 
delays, those are the ones they talk about. They forget very 
quickly about their good, safe flights, and safety has gone way 
up in recent years. So we need to say some of those things.
    Then I am told also that 40 or 41 percent of the delays are 
directly attributable to weather, and when you add in the ones 
that are indirectly attributable to weather in the national 
aviation system, it goes to over 70 percent. So you have got 
that situation, but there are things that we can and should be 
doing.
    For instance, if I heard Inspector General Scovel right, he 
said, I think, eight airlines had come up with ground delay 
plans, and five had not or had implemented those plans.
    Is that correct?
    Mr. Scovel. That is correct, sir. Eight have implemented 
plans for establishing a time period for meeting passengers' 
essential needs. Eight have also set a time period for 
deplaning passengers after a long, on-board delay.
    Mr. Duncan. All right.
    Then Administrator Sturgell, maybe it would be good for you 
to do something as simple as call up those other five airlines 
and ask them why they have not done the same thing as those 
eight airlines, and I wish you would do that.
    Now, let me say this about the air traffic control system. 
I believe I heard you say that we have a little over 14,000 air 
traffic controllers, but did you say that they are handling, on 
average, fewer operations than they were in 1999 and 2000?
    Mr. Sturgell. 14,807 is what we expect to end this fiscal 
year with or more than that. Across the system, operations per 
controller are less than they were in 1999 and in 2000. Now, at 
specific airports, is it different where there has been a 
tremendous amount of growth? It is probably the case. I do not 
have those specific airports or numbers with me, but just 
nationally, that is where we are with the system.
    Mr. Duncan. All right. Let me say this.
    You know, a one-size-fits-all situation usually is not the 
best solution to any problem, and I was very interested when I 
heard the figures, which I have heard similar figures many 
times before--that you said 72 percent of the delays are 
concentrated in seven airports; is that correct? Somebody said 
that.
    Mr. Sturgell. That is correct. Those same seven airports in 
2000--in the summer of 2000, they were 55 percent of the 
delays. Now they are 72 percent of the delays. That includes 
places like Houston and Atlanta, though we have added runways, 
and we have seen big improvements there.
    Mr. Duncan. Right.
    Mr. Sturgell. The focus has been on the New York area this 
summer.
    Mr. Duncan. I think somebody said or I read in one of the 
testimonies that it is almost impossible to build a new 
airport, and it is extremely difficult to add on even new 
runways, but we need to concentrate on those airports where the 
problems are the worst, and then, with all due respect to my 
friend from the other end of Tennessee, we sure do not want to 
restrict these regional jets or you are going to cut down the 
service, the direct service, that cities like Knoxville and 
Greensboro and many other cities would have to New York and to 
Washington and to all of these other places. So the regional 
jets, I will just say, have been a real blessing to areas like 
mine.
    So there are a lot of things that we can do and are doing. 
In fact, we have spent, I think, an average of $2.5 billion 
over the last 3 years on improving the system, the ADS-B 
technology and the NextGen system. Now, in Chairman Costello's 
bill, I am told we have got $13 billion over the next 3 years 
that we have authorized for the NextGen system, so there are 
going to be great improvements.
    Finally, I will just say this because my time has run out. 
While we still need to do a lot more, is the air traffic 
control system, Administrator Sturgell, better than it was last 
year? If you know, approximately how many people at the FAA are 
working to improve the air traffic control system right now in 
addition to the 14,000 air traffic controllers?
    Mr. Sturgell. Well, the mission of the entire agency is to, 
you know, maintain the safest and most efficient air 
transportation system in the world. Everybody at the agency is 
focused on delivering on that mission, and I am sorry that 
folks have the impression that the FAA has not been doing 
anything, I mean, you know, if we have not made that clear. 
Since 2000, we put 13 new runways on line, 1.6 million 
operations, including at Boston, which has been a huge delay 
reduction airport. Next year, we are going to have three more 
locations with new runways. In the last 2 years, I think we 
have had five. We have been working--you know, since the high-
density rule came off in January of 2007, we have been working 
with the airlines and the stakeholders in the New York area on 
a dozen or so operational activities to help that area 
specifically--RNAV, RNP, DRVSM, time-based metering. There is a 
whole list of things that we have been doing that, I think, 
have made this system better than it was last year and, 
certainly, several years ago, and it is going to continue to 
get better, especially if we can, you know, accelerate the 
implementation of some of the technologies we know that are out 
there.
    Mr. Costello. I thank the gentleman.
    Mr. Sturgell, let me ask a couple of questions. I will get 
them in here. The folks on our side of the aisle have asked 
their questions.
    You make a good point. There have been improvements. There 
have been a number of runways built, a number of extensions and 
improvements, and you know, that is one of the reasons why when 
we did our extension on Monday of this week that we made 
certain to extend contract authority for the AIP program for 
the next 90 days as well.
    The question, really, now is what are we going to say to 
the American people for the next several months, from now 
through the holiday season to the end of the year, and that is 
what I would like you to focus on right now.
    What, if anything, will the FAA be doing--I will give you 
the opportunity on the record to say so now--to try and reduce 
delays and congestion between now and the peak of the holiday 
season until the end of the year?
    Mr. Sturgell. Well, with respect to just a couple of things 
here: interacting with the stakeholders who are involved and 
specifically folks in the New York area where there has been a 
tremendous amount this summer. We have had and the Secretary 
has established a working group with ongoing initiatives and 
discussions with the carriers about things we can do in a whole 
number of areas, including consumer rights. Again, you know, I 
understand, you know, how these long delays impact people.You 
know, I use the system both as a passenger and as a pilot. It 
is not a good situation to be in, but we are working with them. 
I saw today that Delta announced that they were going to shift 
some of their afternoon activities into a later third bank at 
JFK, so we will be doing analysis to see how that helps that 
airport. Again, that is done voluntarily.
    Some of the other things we are going to be working on are 
the airspace redesign, putting in the fanned departures that we 
will, hopefully, be implementing in a matter of months. We are 
looking at our own performance in terms of throughput at the 
respective airports and what we can do there. Simultaneous 
approaches at 31 at Kennedy are in use now as well as we have 
started using three runways there, you know, as that operation 
has built up. There are additional approaches at Newark and 
additional RNP and RNAV procedures. All of these things, you 
know, are ongoing, and we expect many of them to be implemented 
before the winter schedule, but our focus is really on the 
summer and, you know, bringing in ASDE-X there a year early so 
that we can have that full system there by July. In addition to 
that, what we are going to have 2 months before then, by May, 
as part of that ASDE-X system is a surface traffic management 
capability.
    You know, this goes back to ``this whole thing is 
complicated.'' One of the complications is the surface, not 
just the movement areas, which we are responsible for, but the 
nonmovement areas, which largely the carriers and the airport 
operators are responsible for, and we intend to give them data 
that will allow them to manage those operations better, and it 
should help us as well.
    Mr. Costello. I thank you.
    Mr. Scovel, would you like to comment as to what can be 
done in the short-term? You have heard Mr. Sturgell talk about 
what the FAA intends to do and can do in the short-term to 
address delays and congestion for the holiday season. I would 
like to ask you specifically:
    Are there any other suggested items that you would 
recommend that the FAA do during this period to reduce 
congestion and delays for the holiday season?
    Mr. Scovel. Thank you, Mr. Chairman. We have a number of 
ideas that we would refer to the FAA and also to the Committee.
    The first would be to revisit capacity benchmarks. Right 
now, capacity benchmarks are calculated at hour intervals. We 
think it would be more helpful if those were recalculated at 
15-minute intervals to provide greater visibility to peaks in 
scheduling. That way, the FAA and airlines, perhaps, if they 
deem it necessary, can address depeaking through voluntary 
means or otherwise.
    Next, shift to a near-term focus at the New York airports. 
We have heard the FAA talk about their concerns about next 
summer. Our analysis is that everyone's concerns over what 
happened this past summer will continue on through the winter 
and, as you pointed out, the busy holiday season. We recommend 
that the airlines and the FAA shift their focus specifically to 
the high-density area around New York, the three airports with 
the most delays, shift their focus to that.
    Third, expand FAA's Airspace Flow Program. It has been 
expanded from 7 to 18 locations. We recommend that the FAA 
examine other locations on an urgent basis where this critical 
program may prove beneficial.
    Next, we urge the airlines--as they promised to do in 2001 
but lost focus in the aftermath of 9/11, we urge the airlines 
to establish specific targets for reducing chronically delayed 
or canceled flights. In the month of June, my staff provided 
for me a list of flights, chronically delayed flights, in the 
month of June. There were seven flights that were late 100 
percent of the time in the month of June. To update that for 
July, there were no 100 percent delayed flights, but all 15 
flights on our list had been delayed at least 93 percent of the 
time. That is unsatisfactory, and the airlines can address 
that.
    We also have recommended to the airlines--and they have 
resisted this recommendation--that they disclose on-time flight 
performance. We think sunshine is a great thing for consumers 
to make intelligent decisions regarding their ticketing needs. 
If flight performance, on-time performance, is available at 
airlines' Web sites, that would serve consumers well.
    We have also recommended to the airlines that they, without 
request by the consumer, disclose to a caller the on-time 
performance of specific flights that the consumer is inquiring 
about when he or she is making reservations.
    The Department should reconvene the task force, that was 
first instituted in 2001, to examine chronically delayed 
flights and other consumer problems but which again lost focus 
in the aftermath of 9/11.
    Finally, sir, we would recommend that large- and medium-hub 
airport operators implement processes for monitoring lengthy 
delays. In my opening statement, I mentioned that 2 of the 13 
airports that we examined had instituted a process to track or 
monitor planes out on the tarmac. At the 2-hour mark, those 
airport operators are prepared to call the carriers and say, 
"What is happening with your plane? How may we assist?" We 
recommend that other airports adopt that process as well.
    Mr. Costello. I thank you, Mr. Scovel, and let me point out 
that, as to many of the recommendations that you just made and 
other recommendations in your report yesterday, I am pleased to 
tell you, as you well know, that we have put in H.R. 2881, that 
passed the House last Thursday, the consumer protection 
provision of the bill. Included in that is transparency as far 
as the airlines are concerned. We would require them to post on 
their Web sites on a monthly basis those flights that have been 
canceled/delayed so that the American people and the people who 
fly have the ability to go online and determine which airlines/
which flights were delayed, canceled and so on.
    With that, the Chair now recognizes the gentleman from 
Arkansas, Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    Again, we appreciate you all being here and helping us out 
with this.
    I think one of the things is that we who sit here are 
frequent travelers, you know, and are on the airlines every 
week, and I think, you know, part of the reason that we have 
such concern is that we have seen a fairly dramatic change in 
the last few years, and the airlines have been so good; the 
whole system has been so good. We really do need to nip this in 
the bud before it gets like--we do not want it to get like 
driving in to Washington, you know, in the morning or in so 
many of our cities. Like I say, this has been the standard that 
has worked so well.
    What you can do for us, you know, and what I try and do and 
what so many Congresspeople try and do is use the power of the 
office for good, to bring people together, and so I think it is 
really important that you do show the leadership and use the 
power of the agency to get people to the table. You have got 
the clout, some ability now, you know, to hammer folks and to 
use that clout, and if you need more clout, then I think we 
will be glad to give you that within reason.
    I would like for you to talk a little bit about these. You 
know, I have had constituents who have sat on the Tarmac for 8 
hours and things like that. To me, there is just no reason in 
the world, you know, that that kind of stuff can be tolerated. 
Can you talk a little bit about that and how you can prevent 
that or should it be prevented or--again, just kind of tell me 
a little bit about your thoughts regarding those horror stories 
that we hear about the 8-hour delays and the Port-a-Pottys 
being full and the whole bit.
    Mr. Sturgell. Well, just kind of operationally first and 
then on the consumer side, Mr. Boozman, I will just say a 
couple of things.
    One is the whole understanding of what is going on on the 
surface in terms of how airports are configured to flow traffic 
onto a runway and off of a runway but also out of a terminal 
where there are throats, where there are bottlenecks, where 
there are folks pushed back and who cannot move because other 
planes are in the way, that kind of thing.
    So one of the things that, you know, we and the industry 
need to do better on is on the surface management side in terms 
of traffic flows, and I think folks--like I said, we are going 
to get something into JFK before the summer of next year. Folks 
like Continental and, I believe, Northwest have installed these 
kinds of systems for themselves as well.
    I also think severe weather does play a factor in terms of 
lengthy delays and taxi-outs at times. Certainly, the ice 
storm, which had been forecasted differently last year with the 
JetBlue incident, was a contributing factor.
    Mr. Boozman. I guess what I am saying, though, is:
    Is there ever an excuse for keeping somebody on a plane for 
6 or 8 hours? I mean that, to me, makes no sense at all.
    Mr. Sturgell. Well, I know the airlines have recognized 
that it is a problem, and some have voluntarily adopted 
programs now, and I think the air transportation----
    Mr. Boozman. But do you all recognize it as a problem?
    Mr. Sturgell. I will let D.J. address some of that.
    Mr. Gribbin. Thank you. I am not here because the 
Administrator needs counsel. I am here because the General 
Counsel's Office at DOT actually houses the Office of Aviation 
Enforcement and Proceedings, which is responsible for consumer 
protection.
    So we have done a number of things. Most recently in May, 
we sent a letter to 20 carriers, in essence saying that we are 
going to consider chronic delays--the instances were mentioned 
before--where you have a flight that is late 100 percent of the 
time as an unfair practice. We will penalize them if, for more 
than two quarters, they continue to have flights like that, 
because what we are looking for is twofold. One is we want 
transparency for consumers when they are purchasing a ticket, 
so they understand that this flight is likely to be delayed. 
Secondly, we want them to have redress if something does go 
wrong at the end of the day.
    That said, our real focus, from a customer standpoint, is 
congestion relief. At the end of the day, most of the 
frustration--as somebody who commuted for a year and a half 
from here to La Guardia, I can attest to the fact that my 
flights were hardly ever on time, and there was no way for me 
to predict when they would be on time. So what we are trying to 
do is to put together a system that will allow us and will 
allow the industry to more reliably operate airlines. A big 
piece of that is potentially congestion pricing, and again, as 
you know, the administration's bill had that as a component, 
and that has been stripped out on the House side. I think that 
is one short-term remedy that we could definitely use that, 
unfortunately, looks like is not going to be available to us.
    Mr. Boozman. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentleman.
    The Chair now recognizes the distinguished Chairman of the 
Full Committee, Mr. Oberstar.
    Mr. Oberstar. Thank you, Mr. Costello, for the splendid 
work you have done all throughout this hearing. I regret having 
to be in and out with other Committee business that we have 
been attending to and also with my own congressional district 
business.
    This is a vexing issue, and it is going to take everyone's 
best efforts. I come back to the image I created earlier, the 
three-legged stool. The FAA, the airports and the airlines all 
have to be working together. No one entity can resolve this 
issue alone.
    The East Coast redesign that the FAA has set forth that is 
now under review by GAO is an important step in the right 
direction, but this is such a complex airspace. Again, there is 
nothing like it anywhere else in the world, especially on the 
East Coast. Now, if you add up the nine TRACONs on the East 
Coast, they total 9.5 million operations for last year. That is 
10 percent of all air operations in the United States, of all 
TRACON operations in the United States. Those are more 
operations than all of Europe combined, more than three times 
as much as all of Europe combined. The nexus of it, the core of 
it, is the New York TRACON's handling 45 airports, four of 
which are within 10 miles of each other and are among the 
busiest in the world. I could say they are the busiest in the 
United States. It is the same as saying they are the busiest in 
the world. This is the busiest airspace.
    In untangling that complexity with the layers of problems, 
the arrival rate has to be predominant. You have got to get 
aircraft on the ground. Also, managing the noise impact on 
communities near airports.
    Whatever you do in the redesign is going to have an adverse 
effect on somebody else because there is no free space in which 
to move things around. The only area where you have capacity, 
blatant capacity in that New York region, is Atlantic City near 
the FAA Research Involvement Testing Center. The FAA just 
recently approved a grant to extend the runway to build out an 
existing runway to, I think, 12,000 feet and to add a taxiway.
    Now, if you manage the ground service into Atlantic City, 
which is very doable--New Jersey has a superb surface 
transportation system, and a high reliance of 10 percent of all 
transportation is by transit in the State of New Jersey--you 
can redirect flow into Atlantic City and reduce pressure on 
Newark, even on Philadelphia. There will probably not be much 
of an effect, though. There might be some, conceivably, on La 
Guardia.
    It is going to take the FAA's paying heed to Mr. Scovel's 
recommendations, which I thought were very pertinent, and 
bringing the airlines into a regular discussion, using the 
existing authority, and scheduling reduction meetings.
    Mr. Oberstar. The Secretary of Transportation may request 
that air carriers meet with the administrator of the Federal 
Aviation Administration to discuss flight reductions at 
severely congested airports to reduce overscheduling and flight 
delays. And the airlines have got to be part of that. They 
can't sit on the sidelines and say, oh, there isn't sufficient 
capacity in the air traffic control system, we need Next 
Generation. That is 15 years off. They have got to be a part of 
the solution. And they are sitting back saying we are not going 
to move until everybody moves. The way to make everybody move 
is for the FAA to exercise that authority. Now, tell me, Mr. 
Sturgell, what steps are the FAA taking to implement that 
authority?
    Mr. Sturgell. Well, we have been--you know, in addition to 
that, we have been working with the industry as you are talking 
about on all these operational improvements, on all of the 
issues in general, discussions about consumer issues, 
discussions about their schedules as Chairman Costello pointed 
out. We did ask recently for international schedules. So it is 
one of the things, you know, among the many things we need to 
be doing that we are looking at the very closely.
    Mr. Oberstar. But you are willing to use that authority to 
bring the carriers together to rationalize their schedules, to 
fill in the peaks and the valleys.
    Mr. Sturgell. We have worked with airlines in the past, 
both voluntarily and at the example of Chicago, you know, 
voluntary scheduling meeting followed by an order to make the 
kind of changes to keep the system safe and efficient.
    Mr. Oberstar. If I recall rightly, there was a time when 
the Congress gave brief exemption from the antitrust authority 
to the FAA--the DOT and the FAA to convene airlines together to 
redo schedules. But I don't think that extensive authority is 
needed because of this provision that I just read from the 
existing law that we enacted a few years ago.
    Mr. Gribbin. Mr. Chairman, I will answer that. Currently, 
we are not able to grant antitrust immunity. We don't have----
    Mr. Oberstar. You don't have that authority.
    Mr. Gribbin. The way we proceeded in Chicago, was we had a 
group meeting and then we had one-on-one negotiations with each 
airline so the airlines would hear what each other was saying. 
That said, I think we need to be careful in throwing out a 
scheduling committee as a solution. It is somewhat akin to 
saying that, you know, cars with license plates that end in 
zero can't drive on Monday and one can't drive on Tuesday and 
three can't drive on Wednesday. That will reduce congestion, 
but it is really not going to improve kind of the quality of 
life for Americans.
    So part of our main mission is to grow capacity so that as 
additional people want to travel, they are able to travel and 
to do that in a way that they are able to travel that is--if 
not congestion free, at least somewhat reliable. So I think 
that is why we are hesitant to jump on a scheduling committee 
as the ultimate solution to the problem. Because it will reduce 
congestion, but it will significantly hamper economic growth.
    Mr. Oberstar.And when you say that image you created, 
several years ago I was in Phoenix, Arizona for a meeting, a 
national meeting on infrastructure capacity and water and sewer 
and sewage treatment plants. And just taking the temperature of 
the local community of the Phoenix area, I turned on the TV for 
the morning news. And there was an announcement, if your 
license plate ends in 7, this is your voluntary no-drive day.
    Mr. Gribbin. Right. Imagine if it was a mandatory no-drive 
day. And that is essentially what the scheduling committee 
would give us.
    Mr. Oberstar. As an interim solution, you do have to use 
that authority, to bring the carriers together to modulate 
their operations. Well, where are you going to add runway 
capacity at Newark, in the Passaic River? That is the only 
place you can build another runway out there. Where are you 
going to add more runways at La Guardia? There is no capacity. 
There is capacity at JFK in the morning hours because you have 
an arrival--an afternoon arrival rate for international 
flights.
    Mr. Gribbin. You----
    Mr. Oberstar. You can't quite conveniently shift La Guardia 
service to JFK.
    Mr. Gribbin. You are dead on. You are severely limited 
especially in New York at capacity now. One of the things that 
we have found historically, however, when we impose caps, is 
that incumbent airlines are hesitant to allow improvements to 
the system that will expand capacity to allow new entrants in. 
And so you do have kind of a perverse set of incentives once 
you impose caps for those that are already at that facility to 
resist expansion. That is why I think as Acting Administrator 
Sturgell said earlier, the FAA's primary goal is to expand 
capacity, expand capacity, expand capacity, try to meet 
consumer demand. If you can't do that, use technology to also 
expand capacity. Then only if we can't do that should we look 
at more regulatory means like scheduling.
    Mr. Oberstar. That is all true, and I understand and I 
posited that at the outset. But if you had NextGen in hand 
today, operating at Newark and you had a storm come in, you 
have got two runways, 900-feet separation, you cannot have 
simultaneous operations under those circumstances. You are down 
to one runway. And what is the arrival and departure rate at 
Newark?
    Mr. Gribbin. I will let Mr. Sturgell answer that. We are 
not talking about necessarily inclement weather issues. What we 
are really looking----
    Mr. Oberstar. That is when the system really breaks down, 
though.
    Mr. Gribbin. Exactly. But currently it is not functioning 
even particularly well when you have clear sky delays, 
especially in the New York area. So what we are trying to do is 
figure out if you have a limited capacity, you have limited 
sort of supply, what is the most efficient way to allocate that 
out so that you don't create perverse incentives for 
gamesmanship to block out competition due to a variety of other 
things.
    Mr. Oberstar. That is where the Department comes in to 
moderate those forces.
    Mr. Gribbin. Right. And what we had asked for in our bill 
actually was the ability to congestion price, which we think 
would allow for----
    Mr. Oberstar. I don't know that pricing is necessary, but 
if you get people around a table--if you have morning peaks, 
mid day peaks and afternoon or evening peaks and then you have 
valleys in between, you have unused--you have available 
capacity and airlines could price, they could provide premiums 
to travelers who have flexible travel schedules to use the 9:00 
to 11:00 period for example or the 1:00 to 3:00 period and 
provide incentives. Unless you bring them into the room 
together, Jim May's operation isn't going to do that.
    Mr. Gribbin. They have absolutely. The way we have 
currently configured our system, the airlines are incentivized 
to put as many flights as possible into New York, and they have 
done exactly that. Which again, if you can price it, you change 
those incentives and you get the people who value it most or 
the people who are able to move the most people take advantage 
of that time slot. I mean, you really have two options--three 
options. One is let delays continue. The second is sort of 
having an administrative solution and the third is pricing, 
where you are allocating scarce resources. History has shown us 
short of the administrative solution, because of data delays 
and other things, is always less efficient than a pricing 
model.
    Mr. Oberstar. Have you tried a congestion pricing model 
anywhere?
    Mr. Gribbin. In fact, La Guardia had a congestion pricing 
model in the 1960s and it worked very well.
    Mr. Oberstar. They had one in the 1960s and then they just 
got rolled over by the influx of air travel. So the departure 
and arrival rate at La Guardia is still at 80 an hour?
    Mr. Sturgell. It depends on whether it is VMC or IMC, Mr. 
Chairman. The benchmarks have gone from 61 to 92 or so, I think 
it is. And that is total operations per hour. But, you know, 
you were talking earlier about Atlantic City. The Port 
Authority is doing a regional study and, of course, we are 
hoping that Stewart will be a viable fourth airport in that 
region. A similar study is going on in San Francisco and we 
think down the road southern California with LAX will need a 
similar look as well. But, we are looking at all reliever 
airports in that area to see what improvements we can do to 
help encourage people to off-load to other airports.
    Mr. Oberstar. Hasn't the introduction of regional jets 
subplanting the Saabs and older generation turbo prop aircrafts 
further complicated the airspace? That is you have RJs carrying 
half the capacity of a 737 or a 320 or sometimes even less, but 
using the same altitudes, same airspace, same arrival and same 
arrival speeds or departure speeds, whereas the Saabs carry 
roughly, say, a capacity of--maybe a little bit less, flying at 
lower altitudes, slower speeds and can fit in. That is 
further--I note that in 2000, we had 570 RJs and last year that 
doubled to 1,746 RJs in the system. Isn't that creating 
additional strains on the air traffic control system?
    Mr. Sturgell. Well, certainly a different type--again--as 
you said, it is complicated. There are different types of 
airplanes. And the more there are different types of airplanes 
in the system makes the system more complicated and difficult 
in general. And you are correct to point out that, you know, 
turbo props generally flew below the higher altitude structures 
that commercial airlines typically fly and that the RJs are 
largely capable of flying at those higher altitudes and will do 
so when it is fuel efficient to them.
    On the other hand, there are a lot of benefits with these 
new planes. It is a new generation of aircraft. There are 
additional capabilities in them. It is a different level of 
comfort and service for the passenger. So there are goods in 
others for all of these things. And, again, it goes back to: it 
is very complicated and it will require everybody working 
together to get this resolved.
    Mr. Oberstar. So we have the GAO reviewing the airspace 
redesign. I hope they can accelerate their review. We need to 
move that along faster so that it can be subject to the public 
commentary and then get on. What do you anticipate on two 
levels? In reduction of delays and increase in capacity at La 
Guardia, JFK, Newark, Teterborough from the redesign?
    Mr. Sturgell. Well, our focus at this point is the summer 
of 2008. And we hope to have some things addressed and in 
place, you know, by early next summer, to help avoid the 
situation that we had today. Obviously, if we move forward with 
airspace redesign and a few of these other operational 
improvements we are looking at, we may be able to help out in 
the winter season this year.
    Mr. Oberstar. Can you put a percentage of reduction of 
delay and percentage of increase in operations? I won't hold it 
to you. I won't say Mr. Sturgell, you told us this. Let's say 
your best guess today is this much.
    Mr. Sturgell. Well, I would be doing an injustice to 
everyone by guessing.
    Mr. Oberstar. The number 20 percent has been floated around 
and attributed to the FAA. Is that a ballpark here?
    Mr. Sturgell. If we are talking about the airspace 
redesign, full implementation we will reduce delays by 20 
percent over the levels we expect in 2011. So we do expect to 
see substantial benefit out of that. And I think there are 
short-term benefits to the airspace redesign for Newark 
departures, La Guardia, and less so at Kennedy. But----
    Mr. Oberstar. And that is an improved flow? Is that 
departure flow or is that arrival flow or is it both?
    Mr. Sturgell. Departure flow, fanned departures, yes, sir.
    Mr. Oberstar. What about the redistribution of noise as a 
result of the redesign? Will there be new populations that--or 
existing populations that receive noise that receive a higher 
impact of noise?
    Mr. Sturgell. So, you know, I understand this is a tough 
issue for everybody and certainly noise going forward for 
aviation is a tough issue in general. There will be a 
redistribution of some noise. But, the net overall benefit is a 
decrease in noise for nearly 600,000 persons. So it is a 
substantial benefit and we did put in a lot of mitigations to 
achieve those benefits from an alternative--you know, if we 
were focused solely on, you know, all about the operation and 
not worried about people and the impact on your constituents 
and the American public, you know, we would not have achieved 
those types of reductions.
    Mr. Oberstar. It is essentially a zero sum game, is it not?
    Mr. Sturgell. It is a benefit in this case.
    Mr. Oberstar. There is no place where there is no noise 
impact now that--where there are no people living who will not 
be impacted by noise.
    Mr. Sturgell. Yeah. There will be new people with noise 
impacts. A lot of the people with noise impacts today will be 
relieved and the net benefit overall is nearly a 600,000 
reduction in noise.
    Mr. Oberstar. In some cases it is--I will stop on a measure 
of relief for you. And that is in some cases, it is perception. 
In 1990, we had just concluded action in Committee and on the 
House floor on the Noise Reduction Act, moving to stage three, 
the new stage three requirement and the bill passed the House. 
And our Committee received an irate call from a homeowner in 
the New York area saying, well, it hasn't benefited us a single 
bit, it hasn't done a thing. I am getting all this noise from a 
DC-10 and I can see it, I can see that aircraft coming right 
overhead. And our Committee staff person that took the irate 
call said, ma'am, you may be able to see that aircraft; but if 
you can see it from where you are, you can't hear the noise. 
That noise is coming from someplace else.
    It is a tough problem. I just come back to the point, the 
airlines have to be engaged. They have to be willing to move 
flights around. They have to be willing to make--offer 
incentives to air travelers to travel at maybe less attractive 
hours of the day and to work hand in hand with the Congress and 
the FAA_and the DOT needs to use the authority that exists in 
law and to accept those_and implement the recommendations of 
MITRE and of the inspector general and work with us. We will 
work with you to help make this move better than it does today. 
Thank you, Mr. Chairman.
    Mr. Costello. I thank Chairman Oberstar. I have a few other 
questions I will submit to you in writing and ask you to reply. 
Before we dismiss the first panel, though. I would like to make 
some comments to follow up on Chairman Oberstar's comments to 
you. One is that--there is no question that the FAA has the 
authority to sit down with the airlines now and to address the 
scheduling issue and as you indicated, Mr. Sturgell, you intend 
to do that.
    The bill that we have passed through the House requires the 
FAA to do that. We require the FAA to sit down with the 
airlines, where there is evidence that, in fact, overscheduling 
as resulted in delays. So that is a major change and we think 
that it is a necessary change. Also in congestion pricing, we 
accepted an amendment on the floor that will require a study on 
that issue.
    So that issue is addressed in the bill. And last, I can't 
help but making note of the fact that when you look at the 
percentage of delays at Newark this year versus the percentage 
of delays at O'Hare International Airport when the FAA came in 
and capped flights at O'Hare, the delays are higher at Newark 
today than they were at O'Hare when the FAA stepped in and 
capped O'Hare. So I just make that point for the record. And, 
Mr. Scovel, I would ask you and your agency, if you would, to 
prepare a report for this Subcommittee.
    As I mentioned earlier, this is a second--the second in a 
series of hearings. I think one of the responsibilities that we 
have is to make certain that both the FAA, the airlines and all 
of the stakeholders here that we are all doing our job and that 
there is aggressive oversight and I said it in our last hearing 
to the airlines in particular and to others that if you think 
we are going away, we are not. This will not be just one 
hearing and we are going to walk away from this, that there 
will be additional hearings. This is the second.
    There will be another hearing on this matter in 
approximately--at least one in the next 90 days. And by that 
time I would hope, Mr. Scovel, that your agency could prepare a 
report for the Subcommittee prior to the hearing, so that in 
the next 90 days, that would take a look at this summer what we 
are discussing right now, the congestion, the delays and the 
problems that we have experienced. And we will get you this 
request in writing.
    But we would like you to take a look at the delays this 
summer in comparison to delays since the year 2000 not only 
delay, but cancellations, including chronically delayed flight, 
as well as airline scheduling and provide to the Subcommittee 
hopefully in the next 90 days prior to our next hearing.
    So we will get that information to you, the specific 
request in writing. We thank all of you for about being here 
today to testify before the Subcommittee. And we will not only 
beholding another hearing in about 90 day, but we will be in 
constant contact with your office and in particular, Mr. 
Sturgell and with Mr. Scovel as well. Again, we thank you for 
your testimony and we would dismiss the first panel at this 
time. Thank you. As our first panel is leaving, let me begin 
the introductions of our second panel and ask our witnesses to 
come forward and take their seats at the table.
    Mr. Patrick Forrey, the President of the National Air 
Traffic Controllers Association; Mr. Jim May, the President and 
the CEO of the Air Transport Association; Mr. Steve Brown, who 
is the senior vice president for operations, National Business 
Aviation Association; Mr. Roger Cohen, the President of the 
Regional Airline Association, Mr. Gregory Principato, who is 
President of the Airport's Council International North America; 
Ms. Kate Hanni, the executive director and spokesperson for the 
Coalition for an Airline Passengers' Bill of Rights; and Mr. 
Kevin Mitchell, who is the Chairman of the Business Travel 
Coalition.

TESTIMONIES OF PATRICK FORREY, PRESIDENT, NATIONAL AIR TRAFFIC 
   CONTROLLERS ASSOCIATION; JIM MAY, PRESIDENT AND CEO, AIR 
 TRANSPORT ASSOCIATION; STEVE BROWN, SENIOR VICE PRESIDENT FOR 
   OPERATIONS, NATIONAL BUSINESS AVIATION ASSOCIATION; ROGER 
    COHEN, PRESIDENT, REGIONAL AIRLINE ASSOCIATION; GREGORY 
  PRINCIPATO, PRESIDENT, AIRPORTS COUNCIL INTERNATIONAL NORTH 
   AMERICA; KATE HANNI, EXECUTIVE DIRECTOR, COALITION FOR AN 
    AIRLINE PASSENGERS' BILL OF RIGHTS; AND KEVIN MITCHELL, 
              CHAIRMAN, BUSINESS TRAVEL COALITION

    Mr. Costello. So we ask that you all take your seats and we 
will recognize you as soon as you are seated and prepared to 
testify. I would note for the second panel for our witnesses 
that we have--your entire statement will be entered into the 
record and we will ask you to summarize your statement so that 
we can get to the questions. You heard the testimony in the 
first panel. If any of you want to provide an answer or 
question or make a point on the record concerning the testimony 
that you have heard from the first panel, please feel free to 
do so. And at this time, I would recognize Mr. Forrey under the 
five-minute rule.
    Let me ask, if I can, if all of you would pull the 
microphone a little bit closer to you. We should have asked 
that of the last panel. It would be helpful to us.
    Mr. Forrey. Is that better? Does that work? Chairman 
Costello, Ranking Member Petri and Members of the Subcommittee, 
I want to thank you for inviting me to testify. I do so on 
behalf of the 19,000 aviation safety professionals that I 
represent at NATCA. Also I would like to express my thanks to 
allow us the ability to address the critical issue of the 
aviation delays in the system. I cannot start this testimony 
without mentioning a fact that the Memphis air route traffic 
control center went into the ATC zero yesterday, which means 
controllers lost all communication with aircraft for three 
hours. Controllers had to clear all commercial flights over an 
eight-state area until the problem was fixed. We have never had 
an outage involving this much airspace for this long a period 
of time.
    One communication line brought the system down affecting 
over a thousand flights and thousands of passengers. The 
experienced veteran controllers rose to the challenge using 
their personal cell phones to separate traffic and ensure 
safety. Inexplicably, the FAA banned cell phones, but 
controllers do what they have to do to make sure they get the 
job done in a crisis and in unsafe events to prevent disaster. 
As we start today's discussion about delays, I must point out 
that if we continue to strip away at the safety redundancy of 
the ATC system, occurrences such as this will continue to occur 
and next time we might not be so lucky. Aside from the millions 
of airline travelers who experienced the pain and frustration 
of this summer's record level of flight delays firsthand, no 
one had a better view of the congested runways, taxiways, gate 
ramps and airways than the Nation's air traffic controllers. 
These controllers work record amounts of hours of overtime in 
high-stressed, understaffed work environments with the guiding 
principle of moving the system along as efficiently as possible 
while keeping safety above all as our highest priority.
    The fact is most delays are caused by weather and airline 
scheduling practices. Air traffic control staffing has also 
become a major factor as facility staffing levels across the 
country plummet. It is not uncommon to see flight restrictions 
due to a shortage of air traffic controllers. Capacity in the 
national airspace system is intricately related to runway 
availability and adequate air traffic control staffing. While 
modernizing enhancements and airspace procedures such as 
required navigation performance and domestic reduced vertical 
separation minimum will result in more available airspace, the 
gains made will be limited by the inadequate air traffic 
control staffing and infrastructure on the ground.
    The simple truth is that the efficiency gains made in 
airspace can only have a major positive impact on delays once 
ground capacity is addressed. Runways and taxiways are an 
absolute necessity to increase system capacity. Currently 
runways are under construction at only three major airports, 
Charlotte, North Carolina, Seattle, Washington and Washington, 
Dulles. The best evidence that supports our position that the 
current delay problem must have a ground based component are 
the results of the new runway at Atlanta Hartsville Jackson 
International Airport. Atlanta's new runway opened May 27, 
2006.
    A comparison of operations and delays was run from May 27th 
to September 30th of 2006 against the same time period in 2005. 
In that period, Atlanta had an increase of almost 3,100 
operations, yet they had nearly 14,000 fewer delays in 2006. 
Meanwhile, understaffing of air traffic control facilities will 
continue to exacerbate the inefficiencies of the current 
system. As the NTSB warned earlier, this year we cannot 
continue to push our air controller workforce beyond its 
limits. Controller fatigue rates are increasing at a 
frightening level as air traffic continues grows. To me, the 
impact controller staffing has on delays is clear. There are 
1,100 fewer certified controllers currently watching the skies 
than on 9/11, when 5,200 aircraft were landed safely in 90 
minutes.
    At the same time, delays have increased over 150 percent 
with nearly identical traffic operations. Moreover, three 
experienced controllers are leaving every day, and an 
additional 70 percent of the current work force will retire in 
the next 5 years. Efforts are going to have to be made to 
stabilize and control the workforce. And a large segment of the 
U.S. Economy is increasingly dependent upon air travel to keep 
moving.
    The simple fact is that when demand exceeds capacity, 
delays will occur. Airline scheduling practices are unrealistic 
and favor marketing demand but they fail to consider capacity. 
Airline schedules are set to optimal conditions. And even at 
that, demand often exceeds capacity. If the weather conditions, 
runway availability, runway configuration, flight paths or 
other restrictions exist, delays are inevitable for flight 
schedules based on optimal conditions.
    Also when airline operations are disrupted at major 
airports, there is a ripple effect of delays across the country 
since aircraft and flight crews will be in the wrong place at 
the wrong time. It is our position that responsible scheduling 
of flights within airport capacity limits will go a long way 
towards alleviating delays. Former Administrator Blakely agreed 
with our position when she recently admitted, "the airlines 
need to take a step back on scheduling practices that are at 
times out of line with reality."
    To that point, NACTA looked at a one-day schedule earlier 
this month for New York's La Guardiaairport. Under optimal 
configurations of runways and under perfect weather, they will 
be able to depart 10 aircraft per quarter hour for a total of 
40 operations departures per hour. The following is a breakdown 
by 15 minute blocks of the effects of the airlines scheduling 
practices for that day.
    Between 2:15 p.m. And 2:29 p.m., 17 aircraft are proposed 
for departure. Remembering under optimal conditions, only 10 
aircraft will the able to depart in the 15-minute block. So 
therefore, seven aircraft will be delayed to the next quarter 
hour creating an immediate backlog. Between 2:30 and 2:44, 
another 10 aircraft are proposed for departure. Seven aircraft 
remain in the backlog. Between 2:45 and 2:59, 11 aircraft are 
proposed for departure. One aircraft will be delayed and added 
to the quarter, totaling eight back logged.
    Between 3:00 and 3:14, 13 aircraft are proposed for 
departure. Three additional aircrafts are added to the back 
log, totaling 11 in the backlog. 3:15 to 3:29, seven aircraft 
are proposed for departure. Three aircraft can be departed from 
the backlog. Eight aircraft remain in the backlog. Between 4:00 
and 4:15 p.m., 14 aircraft are proposed for departure. Four 
aircraft are added to the backlog. Eight are again in the 
backlog. Between 4:15 and 4:29, 10 aircraft are proposed for 
departure. Eight remain in the backlog. Between 4:30 and 4:44, 
eight aircraft are proposed for departure, two aircraft can 
depart from the backlog, six aircraft remain in the backlog. 
Between 4:45 and 4:59, seven aircraft are proposed for 
departure. Three aircraft can depart from the backlog, three 
aircraft remain in the backlog.
    Between 5:00 and 5:14, another 12 aircraft are proposed for 
departure, two additional aircraft are added to the backlog, 
totaling five aircraft in the backlog. Between 5:15 and 5:29, 
four aircraft are proposed for departure. All five aircraft can 
now depart from the backlog and for the first time since 2:00 
that afternoon, the backlog is empty. The controllers will not 
recover the time for nearly 3 hours and neither do the 
passengers on the delayed aircraft.
    Mr. Chairman, thank you for the opportunity to testify 
before you today. I am available for any questions you or any 
Member of the Committee might have.
    Mr. Costello. The Chair thanks Mr. Forrey for your 
testimony and recognizes Mr. May.
    Mr. May. Thank you, Mr. Chairman, I'll truncate my remarks 
in the interest of time. You invited us to comment on 
increasing flight delays and customer service improvements. As 
you have already indicated, the two are inextricably linked. 
Today more people are traveling to more places on more flights 
than ever before. 760 million passengers will fly in 2007, 100 
million more than the year 2000. And why? Because air travel is 
convenient, relatively inexpensive, remarkably safe and demand 
is expected to keep growing, particularly in the New York area 
where metropolitan airports are major international gateways 
serving 32 more international airports and almost 19,000 more 
daily passengers this year than in 2000.
    So I would note for you when you attack scheduling, there 
is a scheduling issue, but we are serving far more destinations 
and flying far more people and that has to be taken into 
account. We are a service industry and our goal is to assure 
that every journey is pleasant and safe and although every day 
20,000 domestic flights and a million-plus passengers arrive at 
their destinations on time, we understand that increasing 
flight delays are a big problem and we are committed to finding 
solutions.
    Delays cost our passengers and us billions of dollars 
annually. And unfortunately, when flights are delayed, our 
service to passengers doesn't meet expectations, their 
expectations or ours. That is unacceptable. We know we must do 
better. There is another reality and that is that this 
outdated, inefficient air traffic control system, increasing 
flight delays and demand on responsive customer service do in 
fact go hand in hand. So we have got to address the air traffic 
control system and make it modern to enable planes to fly more 
efficiently. And I think everybody at this panel would agree 
with that. I won't spend a great deal of time. The point here 
is that nobody likes 72 percent delay rates or efficiency rates 
and it doesn't work to our advantage or to your advantage. 
While NextGen may be the ultimate solution and here I 
distinguish between short-term and long-term as you have in 
your prior discussions, we think--and I think the FAA occurs, 
that there are a number of steps that can be taken near-term to 
improve operational efficiencies and increase use of available 
capacity.
    And this is on top of any scheduling discussions that we 
are more than happy to have the DOT under the right 
circumstances. I would also point out that there is not 
sufficient antitrust protection there at the current time, and 
that having discussions about New York are vastly different 
than discussions in ORD if we can get into that if you choose. 
As we requested in early August, the Department of 
Transportation should accelerate implementation of New York 
airspace it has been discussed today. We think there are 
elements that can be put into place, very near-term, you can 
see those departure routes on the screen on the left side of 
the screen there, I think Pat would verify there is something 
on the order of 12 departure routes right now. We would like to 
take it to 17.
    I think that would make a big difference, increase the 
number of low altitude arrival and departure routes out of the 
major metropolitan airports. We think that will help with 
capacity. Increase the number of planes handled at airports by 
using existing runways and procedures more efficiently. Our 
experts tell us that there is opportunity for more intersecting 
operations, better coordinate access to restricted airspace. 
There is some fairly significant military space that is just 
off of New York that we can't fly through. But if the FAA can 
work it out with the military to provide lanes and operations, 
especially in bad weather, it would have a big impact on the 
operations.
    Let me turn to customer service. And we know that we have 
got to improve. We have read the IG report. I told the 
Inspector General Scovel this morning that I thought it was a 
good report. We have sent a letter today to the Department of 
Transportation asking to sit down at the secretary's earliest 
convenience to discuss the IG report. I would point out to this 
Committee, we are the ones who originally, alongside this 
Committee, asked that that report be completed. Our carriers 
have aggressively pursued some of the suggestions that are in 
there already. Got more than nine carriers that have time 
limits that they have set. They are looking at their long delay 
procedures. They are restocking water and food in strategic 
locations and I think there is just a lot we can do, much 
better than we have in the past. As I said, we have worked with 
the Inspector General's office and we look forward to doing 
that in the future.
    I would note that we have a meeting with the Secretary of 
Transportation tomorrow afternoon on the subject of New York 
congestion and on customer service, and I think that will be 
the first step. So we are not letting any grass grow under our 
feet in terms of responding to this issue. Mr. Chairman, this 
industry has been down this road before. I understand that 
without fundamental change in our air traffic management 
system, the incidents are going to get worse. That is what 
drove us to the demand for NextGen raising. We are moving 760 
million passengers a year today we are going to move a billion 
passengers a year probably within the next 5 years and we have 
to have change to be able to accommodate that. New York is a 
microcosm of what is going to occur around the country. Thank 
you.
    Mr. Costello. The Chair thanks you, Mr. May, and recognizes 
Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman, and Member Petri. Thank 
you for inviting us to appear before the Committee. It is a 
privilege to be with you today. I am Steve Brown. I serve as 
senior vice president of operations for the National Business 
Aviation Association. We represent companies across the country 
that use general aviation aircraft to make their business 
models work. The vast majority of these companies are small to 
medium-sized businesses that use a single aircraft for their 
transportation needs. Prior to joining NBAA, I served as the 
associate administrator for air traffic services at the FAA 
where I managed the operation of the Nation's air traffic 
control system.
    Earlier in my career, I was employed as a commercial pilot 
and taught courses on the faculty at Texas A&M University. This 
varied background has provided me with many of the insights 
outlined today about our aviation system. Mr. Chairman, as you 
know and as Members of the Subcommittee know, for the past 
several months, the general aviation community has endured 
erroneous allegations from some of the Nation's airlines. They 
have attempted to blame record delays and increasing congestion 
on our community. I can tell you from my years of experience 
and current flying activity that those assertions are untrue, 
especially when you look at the facts.
    For instance, at the nation's 10 busiest airports, general 
aviation accounts for less than 4 percent of all aircraft 
operations. When it comes to the busy New York area, because we 
receive so much attention today, our operations have actually 
gone down in recent years, and I expect they will in the 
future. These numbers are so low because our Members typically 
avoid the major airline hubs and instead fly primarily into 
areas where there are no capacity constraints and into general 
aviation reliever airports in the suburbs of metropolitan 
areas.
    On the rare occasions when our operations do go into the 
major hubs, we frequently do so using different approaches and 
different runways as is the case with Boston's Logan Airport. 
What that means is even in the small number of cases when we 
are in areas with major airline congestion, we are not 
contributing to it significantly. Clearly a fair question is, 
if general aviation isn't causing delay, what is? Let me again 
reference New York's airspace.
    Based on my years of managing that airspace, I can tell you 
that when there are capacity issues in the air, it is usually 
because of the problems being caused by hub operations on the 
ground at those few congested airports where traffic is more 
and more concentrated every year.
    For example, JFK, which has been spoken about many times 
today, has enough capacity normally for 44 departures in the 
early morning hours, but the airlines regularly schedule about 
57. When they do that, the gates become full, the scheduled 
carriers ultimately fill the taxiways and the runways with what 
we in the industry refer to as conga lines. There is nowhere to 
put additional aircraft on the ground, and therefore, arriving 
aircraft back up in the air waiting for landing clearance. It 
is natural then that when we look at the data on delays, the 
Department of Transportation information shows that the 
commercial airline scheduling practices are the second leading 
cause of delay, exceeded only by adverse weather. It is also 
worth noting that a few successful airlines are using schedules 
that create smooth demand on the air traffic control system and 
they avoid the destructive practice of overscheduling and 
causing peaks that stimulate delays.
    During my years with Administrator Blakely at FAA, we 
initiated the airline scheduling discussions that ultimately 
resulted in significant delay reductions at Chicago's O'Hare 
Airport. Clearly, general aviation is not the problem when it 
comes to these airline delay issues at congested hubs, and no 
authoritative source has ever concluded otherwise. However, we 
are committed to expanding system capacity because when 
capacity becomes constrained, general aviation is usually the 
first segment to be pushed out of those areas. For example, our 
industry has embraced technologies to help increase the 
capacity of the aviation system. Just over 2 years ago, our 
operators equipped their aircraft at their own significant 
expense with RVSM, reduced vertical separation technology. That 
term basically describes the technology as we have heard today 
that doubles the in route airspace available to high altitude 
aircraft. The majority of these routes created by the capacity 
increase are used by the airlines every day, saving them 
hundreds of millions of dollars in fuel and flight time.
    Our industry also leads the way in supporting stakeholder 
efforts to lay the groundwork for a modernized system. We have 
stakeholders on every one of these Committees working with the 
FAA. And I personally co-chair with my ATA counterpart, the 
current aviation regulatory committee. It is focused on a 
promising technology referred to today as ADS-B or automatic 
dependence surveillance. This technology that we are mutually 
committed to is widely viewed as the cornerstone of 
modernization and will offer significant improvement in the 
future.
    Mr. Chairman, we have demonstrated a commitment to 
strengthening the system as has this Subcommittee by passing 
the legislation that you referred to in your opening remarks. 
The FAA Reauthorization Act of 2007 uses a proven funding 
mechanism, fuel taxes to raise the needed funds for system and 
transformation without resorting to foreign style user fees or 
providing tax breaks for other segments as the critical need 
for modernization and more capacity arises. This legislation 
substantially increases the fuel taxes that general aviation 
will pay, support system modernization.
    In conclusion, I would just like to reiterate one central 
point and that is the airline delays at congested hubs are 
basically a self-inflicted wound that is a byproduct of their 
business practices in those congested areas. My many years of 
managing the system and flying in it have made this reality 
clear. Data from DOT indicates this is also the case. And 
people with a real understanding of how the system works and 
airline economics know that it is true. Anyone who tries to 
convince the public or Members of this Subcommittee otherwise, 
is just simply not representing the complete picture or the 
essential facts. Thank you, and I look forward to any questions 
you may have.
    Mr. Costello. We thank you, Mr. Brown. The Chair now 
recognizes Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chair and Members. My name is 
Roger Cohen. On behalf of RAA's 43 member airlines, there are 
more than 300 associate member suppliers. Thank you for 
inviting us here today since it provides us an opportunity to 
dispel the notion, this growing urban legend that regional jets 
have somehow caused the travel delays this past summer. Instead 
of demonizing RJs, historians will likely look back at the 
regional jet as the transformational jet of this generation.
    Just as the 707 brought comfortable, fast and affordable 
transcontinental and transAtlantic service to millions of 
Americans 50 years ago, the RJ has delivered those same 
benefits to small and medium-sized communities across this 
country, communities whose alternatives used to be a handful of 
flights on slower, less comfortable planes or no flights at 
all. Given America's reliance on regional airlines, it is 
understandable how this urban legend has taken on a life of its 
own. Today, regional airlines carry close to one out of every 
four passengers in this country. We are about one half of the 
schedules flights and we serve more than 600 communities across 
the country.
    Most notably, I point to the map. In 442 of those 
communities, 70 percent of the United States regional airlines 
provide the only scheduled airline service.
    Mr. Chairman, all this is in our brand new annual report. 
And after the Committee meeting, if--we would love to give you 
the first copy off the press. This came out today. So we will 
do that after the hearing. We have mapped in here airline 
service for each State. For example, in your home State of 
Illinois, 23 percent of the passengers flew last year on a 
regional airline and regional jets and turbo props represented 
about 46 percent of the lots.
    Six Illinois airports are served exclusively by regionals 
and Peoria is just shy of that at 93 percent. Even at Chicago's 
O'Hare airport, one of the world's busiest and it was one of 
the world's busiest before the regional jet was even on the 
drawing board, regional airplanes represent half of the 
flights. But where are those flights going?
    Of the 1,041 daily flights at O'Hare, less than 5 percent 
of those aircraft are flying to what FAA designates are the 
countries other big 35 hub airports, which includes close-in 
places like Detroit and Cleveland and Minneapolis and St. 
Louis. The remaining 95 percent fly to small and medium-sized 
communities whose only service into O'Hare may be on regional 
aircraft and that is Appleton to Birmingham, Cedar Rapids, both 
Springfields, Wausau, you name it.
    Well, what about the Big Apple? Because if urban legends--
well, if they can make it there, they can make it anywhere. Let 
me go back here to JFK. At JFK, regional aircraft today 
comprise about half of the daily schedule. But during the 
evening rush hour, that 6 to 8 p.m. Time frame when getting to 
the airport from midtown Manhattan is probably going to take 
longer than the actual flight, aircraft of less than 70 seats 
represent only 25 percent of the departures.
    So there are fewer RJs during JFK's busiest period than 
there are at other times of the day. Let us take a look at La 
Guardia. This chart may be hard to see. But some suggest that 
solving La Guardia's historical delay problems would be solved 
by squeezing out or even banishing RJs. They have proposed a 
scheme forcing airlines to upgauge the planes serving La 
Guardia. But at a capacity constrained, slot-controlled airport 
like La Guardia, discriminating against regional aircraft could 
jeopardize service to countless communities, communities as 
large as Jacksonville, Knoxville, Columbus, Dayton, Louisville, 
Savannah and dozens more.
    Mr. Chairman, regional airlines and regional aircraft 
didn't cause this summer's travel delays. In fact, while the 
number of passengers flying on regionals grew last year by 
about 2 1/2 percent, the number of regional flights actually 
declined by 3 percent. The total hours flown by regional 
airlines also fell last year. So regionals reduced their usage 
of the ATC and airport system year over year. Most notably--and 
I think this is very important--this upgauging of the regional 
fleet has been occurring without any forced schemes or any 
other kind of machinations. In the post 9/11 period, the 
average seating capacity of the regional fleet has grown by 
about a third, from 35 seats per aircraft to about 50 seats 
today.
    In closing and on behalf of our member airlines, who have 
been at the foundation of the industry's post 9/11 recovery, we 
pledge to work with you, this Committee, the FAA and all 
parties to fix the system for the Nation's travellers, even if 
it means one delay at a time. Thank you again for this 
opportunity.
    Mr. Costello. We thank you, Mr. Cohen.
    Mr. Costello. And the Chair now recognizes Mr. Principato.
    Mr. Principato. Thank you, Chairman Costello, Ranking 
Member Petri, thank you for allowing Airports Council 
International the opportunity to testify at this hearing. My 
name is Greg Principato and I am president of ACI North 
America. Our member airports inplane more than 95 percent of 
the domestic and virtually all of the international passenger 
and cargo traffic in North America. About 400 aviation-related 
businesses are also members of ACI North America. We want to 
begin by applauding the Committee for its tireless work on HR 
2881. We especially commend you for providing airports the 
financial tools necessary to build critical safety, security 
and capacity projects, including new runways, taxiways and 
terminals to meet growing passenger needs by increasing the 
ceiling on the passenger facility charge user fee to $7. By 
doing so, airports can meet the growing passenger demand by 
planning now to invest in modern, secure, comfortable and 
environmentally compliant facilities for air travelers.
    We are also grateful to the Committee for including the 
departure queue management pilot program. When implemented, 
this pilot program will have the added benefit of greatly 
reducing the amount of fuel burned and emissions produced by 
taxiing or idling aircraft on the airfield. Airports are 
greatly affected by extended delays and extraordinary flight 
disruptions. The vast majority of airports have contingency 
plans to assist airlines when such assistance is requested. 
This is an important point. Airports do not have and are not 
seeking the regulatory authority to interfere with an airline's 
operations during an extended ground delay.
    However, we do agree that airport operators should work 
more closely with air carriers in enhancing contingency plans, 
including offering assistance after an aircraft has been on the 
tarmac for an agreed upon period of time. The Port Authority of 
New York and New Jersey is a good example. Anticipating that 
there may be unusual situations where an airline may face an 
imbalance between the number of terminal gates and number of 
flights, a policy was implemented several years ago at the Port 
Authority's airports to mitigate the passenger impact.
    This policy urges all carriers to notify airport operation 
staff to determine if an alternate plan can be developed to 
allow passengers to safely disembark at another location. In 
addition to the Port Authority, Atlanta's Hartsfield Jackson 
Airport and others across the country are working with the 
airlines in implementing similar contingency plans to 
successfully combat irregular operations. Just last week, and I 
think this is an important event, more than 40 industry 
representatives from 13 airports and six major airlines 
gathered at the Dallas/Fort Worth airport, at DFW's instigation 
by the way, to facilitate better planning to collectively 
respond to significant service disruptions affecting 
passengers.
    The single most important conclusion from that meeting was 
the need for airports and airlines to use the same techniques 
that have long been successfully employed to respond to 
emergencies, snowstorms and runway construction disruptions. 
ACI North America also believes it is important to provide 
passengers comprehensive information upon which to make their 
air travel decisions and to reasonably compensate them for 
travel disruptions. DOT regulations should be expanded to 
require all airlines that code share with a major international 
airline to report delay and mishandled baggage information.
    Given the fact that regional code sharing airlines now 
provide nearly 50 percent of daily departures, this change is 
long overdue. Additionally, DOT must more effectively measure 
how delays affect passengers. ACI North America agrees with the 
aviation consumer organizations that the current reports do not 
provide complete data. Lacking statistics on the impact of 
air--on air travelers of flight cancellations and diversions.
    Given the fact that airlines are operating at historically 
high load factors, it can take many hours or even days for 
passengers to be reaccommodated. DOT data does not adequately 
capture the impact of these rebooking problems which result in 
significant passenger delay and inconvenience. Involuntary 
denied boarding compensation should also been increased as we 
advocated in comments filed with DOT. We applaud the House for 
enacting legislation requiring the final regulations be 
promulgated within one year. We know that expanded capacity in 
modernizing the air traffic control system will address many of 
the delays experienced by passengers.
    Since 2004, six new runways at some of the busiest U.S. 
airports have opened, funded in part with PFCs including 
Atlanta and Los Angeles. Additionally, five important runway 
projects are projected to be completed by 2010, including the 
Chicago O'Hare modernization project.
    However, it is important to keep in mind that airport 
congestion management programs should be--should also be 
considered as part of the solution, in those limited 
circumstances, where additional airport capacity is not an 
available alternative, or the capacity will not be available 
for several years. It is in the best interest of passengers 
that airport proprietors be permitted to work with airline 
partners to manage capacity in ways that encourage more 
efficient use of airport infrastructure, maintain a safe 
environment and operational balance and respond to community 
complaints about delays. We thank you for this opportunity to 
testify and look forward to working with you to solve these 
problems. Thank you.
    Mr. Costello. Thank you, Mr. Principato.
    Mr. Costello. The Chair now recognizes Ms. Hanni.
    Ms. Hanni. Mr. Chairman, Mr. Petri and Members of the 
Subcommittee, I am Kate Hanni and I appreciate the opportunity 
to testify on behalf of the now 20,500 members of the coalition 
for an airline passenger's bill of rights on these timely and 
important topics. In addition, I would like to take a special 
moment to thank those Members who sent staffers to attend our 
strand-in last week on the Capitol Mall. Most importantly, the 
coalition is most grateful for the many passenger rights 
provisions that were included in the manager's amendment, HR 
2881, FAA reauthorization.
    We look forward to working with you to support the 
retention of these provisions in the House/Senate conference. 
Need to cover passengers in 30- to 60-seat aircraft. We hope 
you can fill one gap when you conference with the Senate. Under 
H.R. 2881 as passed in the House, there is no protection for 
passengers flying in aircraft with fewer than 60 seats. That 
leaves approximately 25 percent of all flights without 
protection or 167 million airline passengers last year. And 
5,000 of the 16,000-plus diverted flights last year are ignored 
by the House passed language. Some of your communities aren't 
served at all by larger aircraft, so without a language change 
in conference, your communities and passengers won't get the 
protection of the airline contingency programs that you voted 
for last week.
    Ms. Hanni. Delays for reasons under control of the 
airlines. We appreciate the Subcommittee's attention to this 
issue of delayed airline flights given the recent painful 
experiences of passengers during the summer months. We have 
included in an attachment of just a few of the hundreds of 
incidences experienced by our members. There are two elements 
of the airline delay equation that are often mentioned by the 
passengers who contact our Web site, and each is under the 
complete control of the airlines.
    First, the airlines who schedule more departures or 
arrivals than an airport can handle in a given period of time 
under the best of weather conditions are simply deceiving their 
passengers. They are collectively promising for marketing 
reasons a service that they cannot provide. The coalition 
wholeheartedly endorses the provision for mandatory reductions 
of airline schedules that was added to H.R. 2881 by the 
Committee leadership, and we will urge the Senate to adopt this 
approach in its legislation. However, individual airlines 
should bear responsibility for their own acts of deceptive 
behavior toward their passengers. An airline that continues to 
schedule a flight that is chronically canceled or delayed is 
deceiving its passengers and should be penalized and forced to 
correct the situation. We will urge the Senate at the House-
Senate conference to amend existing law to make individual 
airlines eliminate these deceptive acts.
    Secondly, the airline sets flight schedules and airport 
staffing levels under the assumption that nothing will go 
wrong, which I heard talked about a lot earlier. When flights 
are delayed or canceled, the airlines simply do not have enough 
staff on duty to make alternative flight arrangements for the 
hundreds of passengers standing in lines or who are getting 
busy signals when they call the airlines' reservation numbers.
    The missing report from the DOT Inspector General. This is 
where I am going to divert--I am going to make a flight 
diversion from my notes. I received the IG report last night as 
I arrived in D.C. I spent most of the night reading it and 
writing some notes to comment. We had only a few hours to 
review the IG's report. Our initial thoughts are these.
    The report relies on the myth that American, JetBlue and 
others have developed policies for delays and have successfully 
adhered to those policies. Not true. In June and July, there 
were three JetBlue and a handful of AA violations. At the time 
of the preparation of this report, there was clear knowledge on 
the part of the Inspector General about a mass stranding on 
April 24th where there were 13 jets that were all over Texas 
that were American Airlines jets, and I am glad to hear that 
you are going to have more hearings on what happened over the 
summer that clarifies that there will be more detail put into 
the IG's report, but it was of grave concern to me last night 
that it was not mentioned in the report and that, apparently, 
the report sounded like American Airlines had taken care of 
this problem in their new policy.
    One of the things that we are very concerned about is the 
wiggle words in their contracts of carriage or in their rule, 
of which they first came out with a 4-hour rule, which, on 
April 24th, became an internal operational guideline that would 
not benefit consumers, and it was not until they realized they 
had to talk about what had happened and that there were jets 
stranded on the Tarmac that they admitted that it was not 
anything that would benefit consumers, that it was an internal 
operational guideline only meant to notify the pilots that 
there was a plane out on the Tarmac for 4 hours. Now they are 
calling it a "policy." So I am not really sure whether it is a 
rule, an internal operational guideline or a policy or what any 
of those three terms actually mean when it comes to their 
language.
    The IG report relies on a small slice of time, December 
29th through March, in regard to the airlines' performance, 
which I am grateful again that you will be reviewing in 90 
days. If you are studying airline delays, study them over the 
holidays and during the summer. The IG appears to be 
recommending that the airlines police themselves again. That 
does not work. Fool me once, dot, dot, dot.
    We think the reasonable conclusion to make as a result of 
this IG's report is that there is clearly a need for 
legislation. It is amazing to me to listen to a group of very 
bright, educated individuals avoid that question. I am stunned, 
just as a normal human being coming into this as recently as 
December 29th, to listen to a group of people not being able to 
answer the questions that were presented earlier. Depending 
upon a self-serving contract of carriage with wiggle words like 
"reasonable" and "as appropriate" are not specific, enforceable 
contracts, and this is acknowledged by the DOT. I know and the 
DOT knows that the rule adopted after December 29th by American 
Airlines quickly became an internal operational guideline only 
to notify pilots of the 4 hours on the ground. Now it is a 
policy. Their words hold no water. Their words are meaningless.
    Deregulation was not intended to give carte blanche to the 
airlines to do whatever they pleased. It was intended to 
provide increased competition and more choices for air 
travelers, not to let airlines violate the basic human rights 
of their passengers. So it is time for Congress to set minimum 
industry standards and for the DOT to monitor and to enforce 
the performance of those standards. However, the DOT has not 
done an adequate job of implementing consumer protection 
regarding these issues.
    In addition, the DOT must correct the collection of invalid 
statistics for Tarmac delays soon. Even where Tarmac delay data 
are reported, reports from our members show a glaring 
difference between the data reported and the actual passenger 
experience.
    Finally, it is imperative that the Committee take note that 
the DOT acknowledges that the customer service plans submitted 
by the airlines are not enforceable. We urge this Committee to 
provide oversight to ensure that the final plans are in 
compliance with your legislative intent and that they are 
enforceable.
    Again--and these are my thank you's--I would like to thank 
Chairman Oberstar and especially Chairman Costello.
    Mr. Costello. Thank you, Ms. Hanni.
    The Chair now recognizes Mr. Mitchell.
    Mr. Mitchell. Thank you.
    Mr. Chair and Members of the Committee, thank you for 
inviting the Business Travel Coalition to testify. My testimony 
today is also on behalf of the 400,000 members of the 
International Airline Passengers Association, IAPA.
    It is promising that the intention of this hearing is to 
move beyond service meltdowns such as the JetBlue debacle this 
winter and expand the analysis to customer service much more 
broadly defined to include long and unpredictable airport 
security lines, cramped planes and the unreliability of the 
system vis-a-vis delays and cancellations. The statistics about 
delays, cancellations and service failures are well-known, so I 
will not repeat them.
    We also hear about the projection of passenger growth from 
today's more than 700 million to 1 billion passengers by 2015 
and how there is a crisis looming. The reality in the U.S. 
commercial aviation system is, today, that there is already a 
crisis, and we are heading for a political and an economic 
nightmare in the years ahead.
    Conventional wisdom is that we will need to prepare now for 
these 1 billion passengers, but in just a short 24 months, we 
will be near 800 million passengers, rendering 2007 and its 
many problems a mere historical footnote. The aviation system 
for business travelers will simply be unreliable; traveler 
productivity will plummet, and commercial activity will be 
reduced.
    The public policy concern is that, on the one hand, if we 
choose ill-conceived remedies in the short-term, we will do 
harm to consumers ultimately and waste precious time laboring 
under "feel good" measures that do not address systemic 
problems. On the other hand, doing nothing is not an option 
given what is fast approaching. Bad weather and the FAA are no 
doubt part of the problem as are ordinary citizens who, for 
example, will likely file lawsuits to block a more efficient 
airspace redesign in the New York area.
    However, it is BTC's view that airlines, as an industry, 
and as the prime movers with respect to fundamental change are 
not energized and motivated to provide the level of leadership 
required to seriously move the dial in sufficient time.
    The airline industry is more than capable of united 
leadership and singleness of purpose as when, for example, it 
secured $5 billion from Congress in 2001 as partial 
compensation for the 9/11 attacks on our Nation. BTC supported 
that legislation. Stories in the press at the time told of a 
galvanized and united airline industry lobby, indeed, 
unprecedented but in the face of an unparalleled crisis, and 
that is what is required now in this growing crisis, but we are 
not seeing it.
    Our recommendation is that Congress should consider 
Reverse-Sunset legislation that would provide a very strong 
inducement for airlines to develop and implement solutions to 
immediately address its portion of the current crisis. BTC 
recommends that the National Academies of Sciences, 
Transportation Research Board be directed by Congress to 
produce two deliverables.
    First, Congress should request a set of well-vetted 
recommendations regarding solutions to systemic aviation system 
problems. For example, immunized DOT-moderated airline 
schedule-reduction conferences for major airport hubs, airport 
congestion pricing alternatives, operational meltdowns, and 
customer service recovery metrics and plans are all areas 
requiring exploration and decisions.
    Second, the TRB would be tasked with defining and stress 
testing criteria to determine if there is a true market failure 
with respect to the reliability and customer service levels of 
the commercial air transportation system. The failure could be 
caused by a lack of national aviation capacity in all of its 
forms and causes or by a lack of aviation industry action to 
address customer service problems broadly defined. Criteria 
might include auditable airline customer service recovery plans 
or metrics such as the DOT-tracked on-time arrivals, mishandled 
baggage, involuntarily bumpings, and customer complaints. Such 
metrics have been legitimized by the airlines like Continental, 
who has used them to reward employee performance. 
Representative DeFazio's consumer hotline idea needs to be 
implemented.
    After considering the ideas and strategies developed by 
TRB, Congress would pass under this concept a Reverse-Sunset 
legislation, embracing some or all of TRB's recommendations. If 
at a point in the future it were determined that the airline 
industry had failed to deliver on its commitments, there would 
not be more hearings to determine if there is a problem. 
Rather, the already passed Reversed-Sunset legislation would 
become the new requirements for the airline industry. The DOT 
Inspector General would be charged with monitoring the industry 
vis-a-vis this legislation, and would report to Congress on a 
routine basis.
    The benefits of the strategic approach would be three--
avoiding punitive, ill-conceived fixes in the near term that 
would ultimately harm the consumer, encouraging the airline 
industry to put energy and leadership behind a campaign to 
introduce sustainable, fundamental reforms to the industry, and 
developing a TRB-led strategy with useful ideas that the 
airline industry could consider implementing voluntarily.
    When I testified in 1999 before this Committee on this very 
subject, BTC believed then that the airlines could and should 
solve their own problems. BTC still believes that this is the 
case today. The difference today is that we are now out of 
time, and the airlines need some old-fashioned motivation to 
take this situation seriously and solve their own problems. BTC 
believes airlines have an historic choice to make--provide real 
leadership today or face regulation tomorrow.
    Thank you very much.
    Mr. Costello. We thank you, Mr. Mitchell.
    Mr. Forrey, in your testimony, you indicate that O'Hare and 
the three airports in the New York area as well as Philadelphia 
International are the most overscheduled airports in the 
country, and I wonder if you might explain the consequences of 
airlines overscheduling.
    Mr. Forrey. Well, the consequence initially is going to be 
delays. You just cannot utilize more runways than what you have 
available. If you put too many airplanes on there, they are 
going to be pushed back. It creates congestion on the airport 
taxiways and the ramp-up areas. It could create confusion. It 
even could come to a point where some of the flight plan data 
that you have in the system times out. Then you have additional 
work that the controllers now have to do to put that 
information back into the system to make sure that it is 
consistent.
    It also adds to mistakes. If you have all of your runways 
jammed up with airplanes and delays are going on, particularly 
if you have places where there is low staffing, people get 
tired, and they make mistakes, and sometimes you get someone 
who knows, and sometimes you get someone in front of the other, 
the point being that people make mistakes, and with the more 
opportunity you create to do that, that is what is going to 
happen. Unfortunately, as these scheduling practices continue, 
the opportunity for a mistake or for an accident to occur 
increases. So those are the initial consequences.
    Mr. Costello. You were here for the earlier panel, and I 
think you heard the testimony indicating, I think from Mr. 
Sturgell, that the FAA says that the system was adequately 
staffed and the productivity of controllers was down since 
1999. I believe those to be his words. The system is adequately 
staffed, but productivity is down from 1999. I wonder if you 
would like to comment.
    Mr. Forrey. That reminds me of the old adage "liars figure 
and figures lie."
    Currently, there are 14,807 controllers, according to the 
FAA, 200 of whom are still at the academy in Oklahoma City, and 
3,000-plus are trainees who are not certified to work 
airplanes. So, looking back to 1999, there were about 12,700 
controllers certified to work airplanes. Today, there are only 
11,400. So, if you look at the statistics and you want to use 
the facts, the average operation, I think, in 1999 was 11.3. 
Today, it is 12.7. So, actually, we are working with more 
productivity today than we were back in 1999, but you know, 
that is what figures do.
    The same thing with the statistics on the New York 
airspace. I mean we have been working with the agency, or were 
up to 2 years ago, to develop that whole plan with New York, 
and like Chairman Oberstar said earlier, it is very complicated 
because you just cannot increase a bunch of fanned departures 
out of New York without affecting all of the other inbound 
traffic and all of the other overflight traffic coming from the 
west, the east, the north, and the south.
    So I am not quite sure where they are getting the 
statistics on the 20 percent increase on operational 
performance or productivity or the increase in reduction and 
delays. It may be possible, but I do not think you implement 
just a piece of the plan without the other parts involved. That 
is a very intricate thing. That goes from Chicago to Boston, 
all the way down to Miami--that whole airspace redesign--for 
which, basically, the agency told us 2 years ago they are not 
interested in our opinions anymore, and we are no longer 
participating. So I think there is a lot more to the story 
there than one would throw statistics out about.
    Mr. Costello. I thank you.
    Mr. May, you indicated that the airlines are a service 
industry and that the airlines are committed to finding 
solutions to the problems. We have heard testimony, and you 
have heard comments by myself and by others up here that, you 
know, these are complicated issues. There are weather delays, 
nonweather delays, and there are some things that the FAA can 
do that, in my judgment, they are not doing and some things 
that the airlines can do regarding scheduling that they are 
failing to do and will not do unless they are forced to do it, 
but that is how I see it.
    You did make the statement, if I got this correctly, that 
there is a lot the airlines can do to prevent delays in the 
holiday season, the coming season, and I wonder. As I asked the 
first panel, I would ask you because that is what people want 
to know immediately, the flying public today. They want to know 
what can be done and what can be expected between now and 
Thanksgiving and Christmas and the holiday season.
    Specifically, what are the airlines doing to try and 
prevent delays during the holiday season?
    Mr. May. I do not know that we have timed it, Mr. Chairman, 
specifically to the holiday season, but we have said, short-
term, Delta Airlines announced today that they have revamped 
their schedule significantly at JFK. They have eliminated a 
certain number of departures an hour; they are moving a lot of 
their flights to a new morning bank for international travel, 
and they are right-sizing changing their fleet mix to do more 
to cabin service than single cabin service as they have in the 
past. If I remember the numbers off the top of my head, some 63 
percent of their operations going forward after these changes 
are complete will be that.
    I think we have indicated to you that we think it would be 
appropriate for the Secretary to pull all of the parties 
together and to sit down. We are having an initial meeting 
tomorrow--as I indicated, no grass under the feet--with the 
Secretary and with the FAA to specifically discuss some of the 
issues of New York airspace. I think the dynamic here--those 
are just two examples. We have said we will be happy to sit 
down and address scheduling, but I think you have acknowledged 
already--and certainly, Chairman Oberstar has acknowledged 
already--some of the real problems with scheduling. You get one 
carrier to take down the schedule, and somebody else, as a new 
entrant, comes in and picks up on it. So what is the advantage 
to volunteering to do that? You get capacity constraints put on 
LGA, La Guardia, and there are two immediate exceptions--one 
for new entrants and the other for small markets. You know, if 
you are going to have constraints apply--and it sounds to us 
like a lot of people are heading in that direction--then you 
have to do it fairly across the whole NAS and for all of those 
people who are moving through there.
    You have talked about the fact there are 40-plus airports 
feeding the New York TRACON. I think that is absolutely 
correct. It is one of the most complex and difficult jobs in 
the world, let alone the United States, to manage traffic 
coming through there with the en route and that which is 
originating and landing in that area. There are some 15 
airports that have that sort of OMB status, all different sizes 
of aircraft, all sorts of different destinations. I think there 
are probably opportunities for the airlines, for Mr. Forrey on 
my right and for others to sit down and discuss ways we can try 
and optimize all that mix of traffic and see whether or not we 
cannot get something done.
    We talked about finding ways to open up that military 
restricted space that is sitting off of New York. I think that 
provides some options. The military does not like to give it 
up, but I have never known anybody more powerful than Chairman 
Oberstar. If there is somebody who is ready to take on the 
military, it is bound to be him.
    So I think we all recognize a need to get this done, but 
what we have not acknowledged is this is not just a scheduling 
issue. You know, we are moving 19,000-plus people a day more 
out of New York, itself. We are running at 85 percent loads--
load factor--in our operations. We are right-sizing the size of 
the fleet. We have to take into account that there is far 
greater demand than there has been in the past. It is not going 
to stop, and there will be consequences of caps, limitations, 
congestion pricing, all of these ideas that are being floated 
around there, and there are going to be a whole lot of people 
in New York who do not have the choices they would like to have 
to fly to those 32 brand new international destinations that 
they have been able to fly to since the year 2000.
    Mr. Costello. You know, I have other Members who want to 
ask questions, so I am limited here.
    Mr. May. We are happy to come in and have these 
conversations with you off line as well.
    Mr. Costello. Let me say that it is interesting, and I 
think it is worth noting that, one, the Administrator on her 
way out on the very last day and in her last speech addressed 
the issue of overscheduling and that if the airlines do not do 
something about it that the government needs to--or that the 
government will, and that is very true. We have had 
conversations with her about scheduling in the past.
    Secondly, Delta, I think, did the right thing today. They 
looked at their scheduling. They are trying to move in the 
right direction to try and reduce the congestion and delays, 
and you indicated here today that, on behalf of the airlines, 
you are willing to work, and you have a meeting tomorrow with 
the Secretary, and you are willing to do what is necessary, but 
I have to tell you that there was not a whole lot of action in 
that regard before we started our hearings earlier this year.
    Mr. May. I do not think there was a whole lot of action 
before we had the really unfortunate incidents in Austin and in 
New York.
    Mr. Costello. I would disagree with you, and I would tell 
you that, if you go back and look at the record, it was the 
Administrator--Administrator Blakey and many others--saying, 
"Boy, we had a terrible year last summer, and this summer is 
not going to be any better," and that was in February of this 
year, but the airlines did not come in and say, "Hey, let us 
sit down, and let us try and address this problem." The 
Administrator at the FAA did not reach out to the airlines and 
say, "Hey, we have to do something about this," and now we find 
ourselves where we are, and the FAA is saying and the airlines 
are saying, "Gosh, we have got to get together and work this 
out."
    My point is that when we provide aggressive oversight, 
people act and they come together and try and solve problems. 
When the Congress does not act and we leave it up to others to 
act, a lot of times self-interests prevail and nothing gets 
done, and that is the point that I am making.
    At this time, I would recognize my friend and Ranking 
Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. I will just 
ask a few questions.
    First of all, to Mr. Forrey, the FAA has just completed, I 
guess, a major redesign of the New York and nearby airspace 
which they are hoping will, among other things, reduce delays 
by about 20 percent.
    Have you or your organization had a chance to look at that? 
Do you have any opinion on their redesign or whether the 
prospects are as rosy as they forecast?
    Mr. Forrey. Mr. Petri, thanks for the question.
    Like I said earlier when I answered the earlier question, 
we had been working collaboratively with the agency from 1999 
up till about 2005. It not only developed the New York airspace 
but addressed how that interrelates to the traffic from 
Chicago, the traffic from Atlanta, the traffic down to Miami, 
the traffic up to Boston, to Washington, everywhere because you 
just cannot change one thing in New York and expect everything 
else to work fine.
    I am not quite sure what--we have not been briefed by the 
agency on their new airspace redesign or what they are going to 
do in New York. We have seen some of the pictures and plans 
from the GAO because they came to us and asked us about the 
same thing that you are asking right now. Some of what they are 
doing is pretty much identical. The environmental impact study 
that we had worked towards up to 2005 is, essentially, what the 
agency is going to run with as far as what kind of airspace 
changes they are going to make. However, we do not know that 
they are implementing any other piece to it, and you just 
cannot implement one piece and expect it to give you the 
results that you think it is going to give you.
    I do not know whether to say it is a complete failure. I do 
not know whether to say it is going to work. I think some of 
the elements of what they are doing have very little impact 
like the fanning of departures to the south. I think that is 
kind of a no-brainer in the New York area, but as far as how 
you increase departures out of that airspace and you do not 
impact other arrivals coming in and other overflights, I do not 
see that being addressed in this plan. It may be, but they have 
not briefed my organization on it. So that is probably the best 
answer I can give you on that.
    Mr. Petri. Mr. May, I do not know if you can really answer 
this or not, and Mr. Oberstar said that, you know, it is a very 
complicated system, and there are a lot of factors going into 
it.
    Is it, would you say, fundamentally that delays are caused 
by--well, obviously, we have weather and things like that which 
are going to always be a factor, but are they problems specific 
to particular airports or to particular carriers? That is to 
say, once in a while, I suppose a carrier can lose control of 
its operations, and they have from time to time, and teams have 
to come in and straighten it out. So I suppose sometimes it is 
one way, and sometimes it is another.
    Looked at longer term from the point of view of the Nation, 
what do you think we can do to try to minimize, as far as 
humanly possible, these sorts of delays?
    Mr. May. Mr. Petri, I have said it before, and I will say 
it again. I think there is no single solution to the problem 
any more than there is a single cause to the problem.
    At the end of the day, we have extraordinary growth and 
demand. In New York City alone--I said it earlier--we are 
doing, you know, significantly more international destinations 
as well as domestic destinations. We are putting more flights 
on. There is real growth there, and it is not just a matter of 
overscheduling, and I would acknowledge there have been 
examples of overscheduling in New York, but it is overall 
demand in the system that is increasing. I think you have to 
take that into account.
    I think you have to take the need for the next generation 
system long-term. I think short-term we need to have a 
collaborative effort with Pat's organization, the FAA, DOT and 
our guys and others to address some short-term solutions to the 
particular demands of that airspace. As I said, it is probably 
the single most complicated airspace in the world when you look 
at all of the different airports that are feeding it, both from 
an en route system on an OMB basis.
    So I do not know any better way to do it than what was 
suggested earlier in this hearing, which is to have all of the 
effective parties come in and sit down and try and work out a 
suite of solutions that are important, because at the end of 
the day, if we use artificial caps or some other kind of 
economic mechanism, your colleagues from New York are going to 
come to you, and they are going to say, "Wait a minute. Why is 
it that you guys are restraining those of us in New York, this 
great economic engine, from flying where we want to go and how 
we want to get there?" that is what we are enabling right now. 
We just have to do it in a more efficient and productive way.
    Mr. Petri. Thank you.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    Mr. Forrey, I think you were here when the Acting 
Administrator and I were engaging in a dialogue about 
overscheduling, and I was particularly impressed on how well 
you quantified it in your testimony. I just want to go back to 
one point where he seemed to disagree with you and with me, 
which is--you know, I said he seemed to imply that this is a 
very transitory problem. It is only a couple of hours, so what 
is the difference? You know, he said this gets cleaned out, but 
I mean, I think, as you pointed out, this can under optimal 
conditions cascade 3 or even 4 hours out in terms of delays, 
and obviously, with less than optimal conditions, it is going 
to be a mess. Is that a fair----
    Mr. Forrey. I think your characterization of it is spot on.
    Mr. DeFazio. Okay. I just happened to have been in a 
meeting with the manager of the San Francisco Airport yesterday 
where there is a growing problem. He has one major airline, 
United, bringing in about the same number of people it used to 
bring in on twice as many planes. Do you find that some of the 
congestion we are dealing with--I think we are talking about 
the number of RJs doubling, and regional transport folks are 
proud of that, but the problem is that a lot of that is 
supplanting what used to be mainline routes with larger planes. 
You just have a little--maybe you have more frequency to try 
and bring in the same number of people, but isn't that causing 
also----
    Mr. Forrey. I think it is--you know, I do not want to throw 
the regional jets under the bus, but you are getting fewer 
people coming in on an airplane. So, obviously, if you are 
going to bring the same number of people in on----
    Mr. DeFazio. Except for weight turbulence, it is absorbing 
the same amount of space as a larger plane, correct?
    Mr. Forrey. Absolutely. When we used to have the props come 
in, you could off-load those on other runways, on shorter 
runways and everything. Now the RJs are just another jet. I 
mean it is. Now, if you have a heavy aircraft or even a large 
aircraft in front of an RJ, you need more space. You cannot use 
the 3 miles or even the 2-1/2 where you can do that at some 
airports, but that is the same thing with any large aircraft, 
heavy or anything else that you have. The RJs, sure, it is 
going to create those kinds of issues at those airports. If you 
schedule it properly--I will go back to that--and spread it out 
throughout the day when you are not trying to jam everyone in 
there at the same time, it is probably less of an impact.
    Mr. DeFazio. Right.
    Now, Mr. Mitchell, when you were talking about business 
travelers, I kind of liked what you said. Bill Lipinski and I 
for years were talking about the "R" word. You said real 
leadership today or reregulation tomorrow. Bill and I were 
predicting that a number of years ago and used to applaud the 
industry, and then a few years ago when they were in big 
economic trouble, they said, "Well, maybe that is not a bad 
idea." I think they are now back to where the free market is 
going to solve their problems here now that they have all gone 
bankrupt and have basically divested themselves of pensions and 
of other obligations, and you know, they are operating so 
efficiently. So I would like to put to you:
    What is the most important thing to a business traveler? 
Mr. May says business passengers demand frequent service. Now, 
is it frequent service on a schedule? Is that more important 
than, say, "Gee, I really wanted to fly at 8:47, but you know, 
there is a plane at 9:30, and there is one at 8:00 that are 
actually going to go, but the one at 8:47 is going to be 
scheduled at a time when it will not go because we are 
overscheduled"? Would realistic scheduling that is predictable 
be more important to business travelers?
    Like I say, in my job, it is the most important thing. I 
have got a very tight schedule. I have got to get where I am 
going or I miss a meeting or I miss boats or I miss doing 
things in the district. I assume that most business travelers 
feel that same pressure.
    Do you think they are demanding that planes be overbooked 
during a time period so they can just choose an exact moment 
they want, but in all likelihood it is going to be delayed? Do 
they like that?
    Mr. Mitchell. Well, underlying what, I think, Mr. May was 
referring to in terms of business travelers demanding frequency 
is the fact that it is the old "S" curve thing in the airline 
industry where the competitor with the great number of 
frequencies reaps the disproportionate amount of the revenue 
and the profits. It is just an economic reality.
    Frequency is very important to business travelers, 
particularly in many of the large hub markets. However, what is 
paramount, only second to safety, is the reliability of the 
system, and that is what is at risk here. That is what is 
breaking down further every day. When we were leading into the 
year 2000 when we had a comparable situation where you could 
not rely on the system to get out to a meeting and back in the 
same day or simply to make a 9:00 o'clock meeting sometime 
somewhere, you would go in the night before, and that is the 
kind of behavior that is back now. People are going out and are 
spending more time away from their families, incurring hotel 
bills and other expenses. So that is the critical thing at this 
point in time. It is the reliability of the system.
    Mr. DeFazio. You know, there are some services that provide 
some discreet information on delays, but they are nowhere near 
complete on a flight-by-flight basis.
    Would that be something useful for the government to 
require of the airlines that they make available an up-to-date 
percentage of on-time performance for every flight they offer?
    Mr. Mitchell. Yes. I mean it goes without saying that a 
consumer who has got complete and accurate information is going 
to make better choices and will actually drive the market, and 
I would say that there is yet another opportunity that may even 
be larger than that, and that is to show statistically, in some 
kind of graphic way, the relative efficiency of these various 
hubs so that, if you show that O'Hare is far less efficient 
from a business traveler's standpoint than a competing hub, 
perhaps the traveler will then go through the other hub, and 
that is going to get the attention of the two hub carriers at 
O'Hare very, very quickly.
    Mr. DeFazio. Okay.
    Mr. Mitchell. There is no reason that DOT could not produce 
that information.
    Mr. DeFazio. So we are back to Adam Smith here, basically, 
that if we are going to run this with market forces in a 
competitive, free market system of capitalism, the consumers 
need perfect information or all information, better 
information?
    Mr. Mitchell. They need better information, and there has 
to be a recognition that some markets work well and some 
markets do not work well, and I leave that up to the economists 
to say where this one is, but in a market that does not work 
particularly well, the premium is even greater on information 
to the consumer.
    Mr. DeFazio. Great. Thank you.
    Thank you, Mr. Chairman. Thank you for indulging my 
overtime.
    Mr. Costello. I thank the gentleman.
    The Chair now recognizes the distinguished Chairman of the 
Full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you again, Mr. Chairman and Mr. Petri, 
for your patience in working through a long afternoon of an 
extensive list of witnesses and hearings and very important 
information.
    Mr. Principato, the airports are one of that three-legged 
stool that I talked about in addressing successfully the issue 
of capacity in our system.
    In the aftermath of September 11, airports put on hold a 
large number of AIP projects, capacity enhancement initiatives, 
in order to put the money into security. Some $3.2 billion to 
$3.5 billion in runway capacity projects was put on hold and 
the money shifted to security needs. None of that has been 
reimbursed to--I use that word loosely--has been repatriated to 
airports as I, at the time, suggested out of the DOD 
appropriation or out of the Homeland Security Department 
appropriation. None of that. You have had to issue PFCs. You 
have had to scale back on projects and still try to recapture 
some of that capacity. So, even if we gave you all the money in 
the world right now, you could not build all of that additional 
capacity this year or next year. It takes years to build, 
doesn't it?
    Mr. Principato. It does. It takes a long time. One of the 
best quotes on that is probably from Gina Marie Lindsey when 
she ran the Seattle airport. Maybe it was before this Committee 
she was testifying, and she said it took the Egyptians less 
time to build the pyramids at Giza than it is taking her to 
build her runway in Seattle. It takes an awful long time. You 
are right. It is not going to happen in just a year or two, but 
we want to begin now to try to catch up. You are right. We put 
a lot of projects on hold. We want to catch up.
    The new runway in Atlanta was referenced earlier by the 
earlier panel. Thirty more arrivals per hour, I think is the 
figure, and it is not only service to more communities but is 
certainly a more efficient use of that airfield, and then the 
round taxiway there, again, is a more efficient use of the 
airfield.
    Mr. Oberstar. A footnote to your comment about Seattle is 
that I am not quite sure about the time it took to build the 
pyramids in Egypt, but I do know this, that from the time the 
planning began for the crosswind runway at Seattle, the 8,700-
foot runway, until the time actual work began on the runway, 
Hong Kong built two 12,500-foot runways in the ocean at a depth 
of 600 meters and a terminal to accommodate 90 million 
passengers a year and had aircraft operating and a 23-mile 
connector rail, truck and passenger vehicle to downtown Hong 
Kong before Seattle got its runway out there. That is why we 
included permit streamlining in the 2003 aviation bill.
    Mr. Principato. I appreciate that very much.
    Mr. Oberstar. But there are limitations. You cannot add 
runway capacity at Newark--we had this discussion with the 
previous panel--unless you build it in the Passaic River. It is 
not a very good option.
    There is no ability to add capacity, runway capacity, at La 
Guardia, is there, or at JFK for that matter----
    Mr. Principato. That is right.
    Mr. Oberstar. --or a Teterboro?
    Mr. Principato. Right.
    Mr. Oberstar. You do have capacity at Stewart, and you have 
some potential capacity at Atlantic City. That is going to take 
airlines routing traffic into Atlantic City. It is going to 
take ground capacity to serve Atlantic City. It can be done and 
it should be done and it needs to be done, and we will create 
the additional capacity.
    Now, Mr. Mitchell, from the years when your organization 
went from the National Passenger Traffic Coalition to the 
National Business Travelers Association, you supported the 
passenger facility charge in the anticipation that it would add 
to capacity, but roughly 23 percent of PFCs have gone into air 
side capacity over the 16 years that it has been in operation. 
We have put increased pressure on airports. The existing bill 
passed the House to invest more funds.
    What opportunities do you see for airport air side capacity 
to provide relief to the congestion problem?
    Mr. Mitchell. I think you may be confusing two different 
organizations. We have never commented on PFCs or----
    Mr. Oberstar. I am sorry. I thought you had. I thought you 
had.
    Mr. Mitchell. No. I think that might be another group, so I 
would defer to the other experts on the panel.
    Mr. Oberstar. I will answer the question myself.
    We expect the airports to do that, Mr. Principato.
    Mr. Principato. If I could just say, we have heard you loud 
and clear on that point, and have talked to you, of course, 
many times this year.
    I think the other thing that is important to know is that 
the terminal projects, of course, are more expensive than 
runway projects for a variety of reasons, and there are 
actually more air side projects being funded with PFCs that are 
ongoing right now than terminal projects because the terminal 
projects cost so much more that the dollar figures are out of 
balance, and as to the air side projects that are planned into 
the future for PFCs that are on the books now and that are 
approved, there are far more air side projects than terminal 
projects.
    The industry is hearing you loud and clear on that, but I 
do want to make sure that it is said that, because terminal 
projects are so much more expensive than air side projects, the 
dollar figures are out of balance with the number of projects 
that are going on.
    Mr. Oberstar. Well, following up, Mr. Mitchell, on Mr. 
DeFazio's question to you about when business travelers want to 
travel and, Mr. May, your members and their scheduling flights, 
if you got together and if the airlines provided some 
incentives to business travelers to use less attractive periods 
of the day with a financial incentive attached to it, that 
would provide some incentive, wouldn't it, Mr. Mitchell?
    Mr. Mitchell. It certainly would, and it might help on the 
margins. It is already sort of in the airline pricing today. If 
a flight is at 3:00 o'clock--and traditionally, it has 50 
percent load factors--there are natural incentives to be very, 
very price competitive on that flight.
    I think that the reality is that we are going to have to do 
something to level off demand. The options are, you know, slot 
controls, auctions and congestion pricing, perhaps changing 
from weight-based landing fees to passenger fees. These are all 
extraordinarily complex economic concepts that you can debate 
on either side. Both sides of an issue, you know, can win on 
any given day. I just think we need some real expertise, 
neutral expertise, to wade through this.
    Mr. Oberstar. We have that expertise right here at this 
table.
    Mr. May, who bears the cost burden of congestion pricing?
    Mr. May. I think, ultimately, the passenger will bear the 
burden of----
    Mr. Oberstar. But up front it is the airline?
    Mr. May. Up front it will be, but you know, congestion 
pricing, as I understand it, Mr. Chairman, is little more than 
an economic transference of wealth from one party to another, 
and it is not necessarily going to affect consumer behavior. If 
a businessman needs to fly at 5:00 o'clock in the evening to 
London out of JFK to make an important meeting, then all that 
congestion pricing is going to do is to put a premium on that 
ticket.
    As to the other suggestion that we look for ways, we say 
with great affection to you, Mr. Chairman, we are trying to 
raise our prices, not lower our prices for our tickets.
    Mr. Oberstar. Well, you are doing a very good job of that. 
That is for sure.
    Mr. May. I wish we were doing a much better job.
    Mr. Oberstar. And it is not moving the travel along.
    Now, you know, because you have been through this 
situation--and I have cited several times--that you cannot have 
57 flights all depart DFW at 7:00 a.m. Air traffic controllers 
cannot move that many aircraft departing at 7:00 a.m.
    Mr. May. Mr. Forrey has been reminding me of that ever 
since we have been sitting here, Mr. Chairman.
    Mr. Oberstar. Yes.
    Mr. May. We have committed to sit down and to discuss 
scheduling but I would point out, in JFK's instance in 
particular, there are about 80 airlines that are flying in and 
out of JFK.
    Mr. Oberstar. That is right.
    Mr. May. There is a huge demand coming on international 
because of the U.S.-EU agreements, and that is going to 
complicate our life significantly, and if we put artificial 
restrictions on flying in and out of there, the places that are 
going to suffer the most are the smaller communities and the 
underserved communities right now. So we just need to make sure 
we understand what the consequence is of all of these 
discussions.
    Mr. Oberstar. Well, as I discussed earlier--and you heard 
the discussion with Mr. Sturgell--the FAA has the authority to 
convene airlines and to work out scheduling.
    Mr. May. They do not, Mr. Chairman, have the antitrust----
    Mr. Oberstar. But you do not need an antitrust exemption to 
do these things.
    Mr. May. Yes, sir. I would very respectfully----
    Mr. Oberstar. Now, I think in the short-term you can reach 
accommodations, and we do not need to add--we did for a very 
brief period of time provide antitrust exemption, but it can be 
done in a way that is less cumbersome and that raises less 
concern about the outcome than to have antitrust exemption, and 
you can come together to discuss scheduling and to avoid that 
problem of the airlines that say, "Well, you are asking me, but 
you are not asking the others to make a sacrifice." I cannot 
blame an airline like--I do not know where I have that specific 
language--but that says we do not want to--here we are.
    The delay reduction actions: "the Secretary of 
Transportation may request air carriers meet with the 
Administrator of the FAA to discuss flight reductions at 
severely congested airports to reduce overscheduling and flight 
delays during hours of peak operations."
    Mr. May. Correct.
    My only point, Mr. Chairman, is that when they did O'Hare, 
for example--Chairman Costello is particularly familiar with 
this, as are you--there was a reason they had to use shuttle 
discussion, and that was because they did not have the 
antitrust authority to put both American and United in the room 
at the same time, and there is an airport where two very 
dominant carriers were in the operation. At JFK, you do not 
have that same dynamic, and there are lots and lots of 
different parties, some of them foreign flag.
    All I am pointing out is not an interest or a willingness 
to sit down and come up with an answer to the challenge, but it 
is a far more difficult legal environment than it was at 
O'Hare.
    Mr. Oberstar. Well, tomorrow, apparently, the President is 
going to convene a meeting with the Secretary of Transportation 
and with the FAA and will discuss the congestion problem and 
the air traffic delays, and he may have some observations.
    Is there anything more that we could have done in the bill 
that we passed in the House to address delays?
    Mr. May. Specific to delays, I do not know, because I think 
what we are talking about is shorter term issues between now 
and this Christmas. I think those are administrative and 
operational kinds of challenges that we need to take on, and I 
think it is going to take a fully cooperative effort between 
the FAA, the controllers, airlines, reports, and others to 
address that.
    Mr. Oberstar. Right. Maybe the President has a rabbit in 
his hat that he is going to pull out, and the rabbit is going 
to be implementing NextGen in the next 6 months.
    Mr. May. I would suspect, Mr. Chairman, that we are going 
to hear an announcement on caps for both JFK and Newark, and as 
I said earlier, when you have artificial constraints of that 
sort----
    Mr. Oberstar. That is going to have an economic consequence 
in raising costs and in reducing opportunities for travel.
    Mr. May. That is exactly right, sir.
    Mr. Oberstar. Well, thank you, Mr. Chairman.
    I thank each member of the panel.
    Ms. Hanni, thank you for the work that you have done on 
behalf of your coalition. You have really inspired Members of 
Congress to respond, and you have made it possible for us to 
include improvements in this legislation for air travelers 
during periods of delays.
    Ms. Hanni. Thank you.
    Mr. Costello. I thank Chairman Oberstar, and I thank our 
witnesses today.
    I just wonder, Mr. Forrey. Are you invited to the meeting 
tomorrow with the President and the Secretary?
    Mr. Forrey. What meeting? No.
    Mr. Costello. As I said earlier, we were pleased with the 
announcement by Delta that they are looking at their scheduling 
at JFK and will reduce the number of flights. I think that is a 
step in the right direction. I think the Administrator's 
observation was the right observation, and I think the Acting 
Administrator's decision and announcement the other day that 
they are going to sit down with the airlines and try and take a 
look at scheduling to address the problem--I think all of those 
things are a step in the right direction, and we look forward 
to hearing from the President tomorrow, and we hope that it 
involves a cooperative agreement between some of our airlines 
reducing flights in congested areas and taking action that is 
necessary to address this problem. We thank you.
    Let me say to Ms. Hanni, as Chairman Oberstar said, we not 
only thank you but your members for your active involvement, 
and I would tell you that we are only halfway through the 
process, and I would encourage you to spend time over on the 
other side of the Capitol, in the other body, to inspire them 
and to make certain that they take a look at H.R. 2881. If they 
do, we think that if those provisions are contained in a final 
legislation signed by the President that it will go a long way 
to helping passengers in the future.
    With that, we again thank all of our witnesses for being 
here today. The Subcommittee stands adjourned.
    [Whereupon, at 6:35 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8169.013
    
    [GRAPHIC] [TIFF OMITTED] T8169.014
    
    [GRAPHIC] [TIFF OMITTED] T8169.015
    
    [GRAPHIC] [TIFF OMITTED] T8169.016
    
    [GRAPHIC] [TIFF OMITTED] T8169.017
    
    [GRAPHIC] [TIFF OMITTED] T8169.018
    
    [GRAPHIC] [TIFF OMITTED] T8169.019
    
    [GRAPHIC] [TIFF OMITTED] T8169.020
    
    [GRAPHIC] [TIFF OMITTED] T8169.021
    
    [GRAPHIC] [TIFF OMITTED] T8169.022
    
    [GRAPHIC] [TIFF OMITTED] T8169.023
    
    [GRAPHIC] [TIFF OMITTED] T8169.024
    
    [GRAPHIC] [TIFF OMITTED] T8169.025
    
    [GRAPHIC] [TIFF OMITTED] T8169.026
    
    [GRAPHIC] [TIFF OMITTED] T8169.027
    
    [GRAPHIC] [TIFF OMITTED] T8169.028
    
    [GRAPHIC] [TIFF OMITTED] T8169.029
    
    [GRAPHIC] [TIFF OMITTED] T8169.030
    
    [GRAPHIC] [TIFF OMITTED] T8169.031
    
    [GRAPHIC] [TIFF OMITTED] T8169.032
    
    [GRAPHIC] [TIFF OMITTED] T8169.033
    
    [GRAPHIC] [TIFF OMITTED] T8169.034
    
    [GRAPHIC] [TIFF OMITTED] T8169.035
    
    [GRAPHIC] [TIFF OMITTED] T8169.036
    
    [GRAPHIC] [TIFF OMITTED] T8169.037
    
    [GRAPHIC] [TIFF OMITTED] T8169.038
    
    [GRAPHIC] [TIFF OMITTED] T8169.039
    
    [GRAPHIC] [TIFF OMITTED] T8169.040
    
    [GRAPHIC] [TIFF OMITTED] T8169.041
    
    [GRAPHIC] [TIFF OMITTED] T8169.042
    
    [GRAPHIC] [TIFF OMITTED] T8169.043
    
    [GRAPHIC] [TIFF OMITTED] T8169.044
    
    [GRAPHIC] [TIFF OMITTED] T8169.045
    
    [GRAPHIC] [TIFF OMITTED] T8169.046
    
    [GRAPHIC] [TIFF OMITTED] T8169.047
    
    [GRAPHIC] [TIFF OMITTED] T8169.048
    
    [GRAPHIC] [TIFF OMITTED] T8169.049
    
    [GRAPHIC] [TIFF OMITTED] T8169.050
    
    [GRAPHIC] [TIFF OMITTED] T8169.051
    
    [GRAPHIC] [TIFF OMITTED] T8169.052
    
    [GRAPHIC] [TIFF OMITTED] T8169.053
    
    [GRAPHIC] [TIFF OMITTED] T8169.054
    
    [GRAPHIC] [TIFF OMITTED] T8169.055
    
    [GRAPHIC] [TIFF OMITTED] T8169.056
    
    [GRAPHIC] [TIFF OMITTED] T8169.057
    
    [GRAPHIC] [TIFF OMITTED] T8169.058
    
    [GRAPHIC] [TIFF OMITTED] T8169.059
    
    [GRAPHIC] [TIFF OMITTED] T8169.060
    
    [GRAPHIC] [TIFF OMITTED] T8169.061
    
    [GRAPHIC] [TIFF OMITTED] T8169.062
    
    [GRAPHIC] [TIFF OMITTED] T8169.063
    
    [GRAPHIC] [TIFF OMITTED] T8169.064
    
    [GRAPHIC] [TIFF OMITTED] T8169.065
    
    [GRAPHIC] [TIFF OMITTED] T8169.066
    
    [GRAPHIC] [TIFF OMITTED] T8169.067
    
    [GRAPHIC] [TIFF OMITTED] T8169.068
    
    [GRAPHIC] [TIFF OMITTED] T8169.069
    
    [GRAPHIC] [TIFF OMITTED] T8169.070
    
    [GRAPHIC] [TIFF OMITTED] T8169.071
    
    [GRAPHIC] [TIFF OMITTED] T8169.072
    
    [GRAPHIC] [TIFF OMITTED] T8169.073
    
    [GRAPHIC] [TIFF OMITTED] T8169.074
    
    [GRAPHIC] [TIFF OMITTED] T8169.075
    
    [GRAPHIC] [TIFF OMITTED] T8169.076
    
    [GRAPHIC] [TIFF OMITTED] T8169.077
    
    [GRAPHIC] [TIFF OMITTED] T8169.078
    
    [GRAPHIC] [TIFF OMITTED] T8169.079
    
    [GRAPHIC] [TIFF OMITTED] T8169.080
    
    [GRAPHIC] [TIFF OMITTED] T8169.081
    
    [GRAPHIC] [TIFF OMITTED] T8169.082
    
    [GRAPHIC] [TIFF OMITTED] T8169.083
    
    [GRAPHIC] [TIFF OMITTED] T8169.084
    
    [GRAPHIC] [TIFF OMITTED] T8169.085
    
    [GRAPHIC] [TIFF OMITTED] T8169.086
    
    [GRAPHIC] [TIFF OMITTED] T8169.087
    
    [GRAPHIC] [TIFF OMITTED] T8169.088
    
    [GRAPHIC] [TIFF OMITTED] T8169.089
    
    [GRAPHIC] [TIFF OMITTED] T8169.090
    
    [GRAPHIC] [TIFF OMITTED] T8169.091
    
    [GRAPHIC] [TIFF OMITTED] T8169.092
    
    [GRAPHIC] [TIFF OMITTED] T8169.093
    
    [GRAPHIC] [TIFF OMITTED] T8169.094
    
    [GRAPHIC] [TIFF OMITTED] T8169.095
    
    [GRAPHIC] [TIFF OMITTED] T8169.096
    
    [GRAPHIC] [TIFF OMITTED] T8169.097
    
    [GRAPHIC] [TIFF OMITTED] T8169.098
    
    [GRAPHIC] [TIFF OMITTED] T8169.099
    
    [GRAPHIC] [TIFF OMITTED] T8169.100
    
    [GRAPHIC] [TIFF OMITTED] T8169.101
    
    [GRAPHIC] [TIFF OMITTED] T8169.102
    
    [GRAPHIC] [TIFF OMITTED] T8169.103
    
    [GRAPHIC] [TIFF OMITTED] T8169.104
    
    [GRAPHIC] [TIFF OMITTED] T8169.105
    
    [GRAPHIC] [TIFF OMITTED] T8169.106
    
    [GRAPHIC] [TIFF OMITTED] T8169.107
    
    [GRAPHIC] [TIFF OMITTED] T8169.108
    
    [GRAPHIC] [TIFF OMITTED] T8169.109
    
    [GRAPHIC] [TIFF OMITTED] T8169.110
    
    [GRAPHIC] [TIFF OMITTED] T8169.111
    
    [GRAPHIC] [TIFF OMITTED] T8169.112
    
    [GRAPHIC] [TIFF OMITTED] T8169.113
    
    [GRAPHIC] [TIFF OMITTED] T8169.114
    
    [GRAPHIC] [TIFF OMITTED] T8169.115
    
    [GRAPHIC] [TIFF OMITTED] T8169.116
    
    [GRAPHIC] [TIFF OMITTED] T8169.117
    
    [GRAPHIC] [TIFF OMITTED] T8169.118
    
    [GRAPHIC] [TIFF OMITTED] T8169.119
    
    [GRAPHIC] [TIFF OMITTED] T8169.120
    
    [GRAPHIC] [TIFF OMITTED] T8169.121
    
    [GRAPHIC] [TIFF OMITTED] T8169.122
    
    [GRAPHIC] [TIFF OMITTED] T8169.123
    
    [GRAPHIC] [TIFF OMITTED] T8169.124
    
    [GRAPHIC] [TIFF OMITTED] T8169.125
    
    [GRAPHIC] [TIFF OMITTED] T8169.126
    
    [GRAPHIC] [TIFF OMITTED] T8169.127
    
    [GRAPHIC] [TIFF OMITTED] T8169.128
    
    [GRAPHIC] [TIFF OMITTED] T8169.129
    
    [GRAPHIC] [TIFF OMITTED] T8169.130
    
    [GRAPHIC] [TIFF OMITTED] T8169.131
    
    [GRAPHIC] [TIFF OMITTED] T8169.132
    
    [GRAPHIC] [TIFF OMITTED] T8169.133
    
    [GRAPHIC] [TIFF OMITTED] T8169.134
    
    [GRAPHIC] [TIFF OMITTED] T8169.135
    
    [GRAPHIC] [TIFF OMITTED] T8169.136
    
    [GRAPHIC] [TIFF OMITTED] T8169.137
    
    [GRAPHIC] [TIFF OMITTED] T8169.138
    
    [GRAPHIC] [TIFF OMITTED] T8169.139
    
    [GRAPHIC] [TIFF OMITTED] T8169.140
    
    [GRAPHIC] [TIFF OMITTED] T8169.141
    
    [GRAPHIC] [TIFF OMITTED] T8169.142
    
    [GRAPHIC] [TIFF OMITTED] T8169.143
    
    [GRAPHIC] [TIFF OMITTED] T8169.144
    
    [GRAPHIC] [TIFF OMITTED] T8169.145
    
    [GRAPHIC] [TIFF OMITTED] T8169.146
    
    [GRAPHIC] [TIFF OMITTED] T8169.147
    
    [GRAPHIC] [TIFF OMITTED] T8169.148
    
    [GRAPHIC] [TIFF OMITTED] T8169.149
    
    [GRAPHIC] [TIFF OMITTED] T8169.150
    
    [GRAPHIC] [TIFF OMITTED] T8169.151
    
    [GRAPHIC] [TIFF OMITTED] T8169.152
    
    [GRAPHIC] [TIFF OMITTED] T8169.153
    
    [GRAPHIC] [TIFF OMITTED] T8169.154
    
    [GRAPHIC] [TIFF OMITTED] T8169.155
    
    [GRAPHIC] [TIFF OMITTED] T8169.156
    
    [GRAPHIC] [TIFF OMITTED] T8169.157
    
    [GRAPHIC] [TIFF OMITTED] T8169.158
    
    [GRAPHIC] [TIFF OMITTED] T8169.159
    
    [GRAPHIC] [TIFF OMITTED] T8169.160
    
    [GRAPHIC] [TIFF OMITTED] T8169.161
    
    [GRAPHIC] [TIFF OMITTED] T8169.162
    
    [GRAPHIC] [TIFF OMITTED] T8169.163
    
    [GRAPHIC] [TIFF OMITTED] T8169.164
    
    [GRAPHIC] [TIFF OMITTED] T8169.165
    
    [GRAPHIC] [TIFF OMITTED] T8169.166
    
    [GRAPHIC] [TIFF OMITTED] T8169.167
    
    [GRAPHIC] [TIFF OMITTED] T8169.168
    
    [GRAPHIC] [TIFF OMITTED] T8169.169
    
    [GRAPHIC] [TIFF OMITTED] T8169.170
    
    [GRAPHIC] [TIFF OMITTED] T8169.171
    
    [GRAPHIC] [TIFF OMITTED] T8169.172
    
    [GRAPHIC] [TIFF OMITTED] T8169.173
    
    [GRAPHIC] [TIFF OMITTED] T8169.174
    
    [GRAPHIC] [TIFF OMITTED] T8169.175
    
    [GRAPHIC] [TIFF OMITTED] T8169.176
    
    [GRAPHIC] [TIFF OMITTED] T8169.177
    
    [GRAPHIC] [TIFF OMITTED] T8169.178
    
    [GRAPHIC] [TIFF OMITTED] T8169.179
    
    [GRAPHIC] [TIFF OMITTED] T8169.180
    
    [GRAPHIC] [TIFF OMITTED] T8169.181
    
    [GRAPHIC] [TIFF OMITTED] T8169.182
    
    [GRAPHIC] [TIFF OMITTED] T8169.183
    
    [GRAPHIC] [TIFF OMITTED] T8169.184
    
    [GRAPHIC] [TIFF OMITTED] T8169.185
    
    [GRAPHIC] [TIFF OMITTED] T8169.186
    
    [GRAPHIC] [TIFF OMITTED] T8169.187
    
    [GRAPHIC] [TIFF OMITTED] T8169.188
    
    [GRAPHIC] [TIFF OMITTED] T8169.189
    
    [GRAPHIC] [TIFF OMITTED] T8169.190
    
    [GRAPHIC] [TIFF OMITTED] T8169.191
    
    [GRAPHIC] [TIFF OMITTED] T8169.192
    
    [GRAPHIC] [TIFF OMITTED] T8169.193
    
    [GRAPHIC] [TIFF OMITTED] T8169.194
    
    [GRAPHIC] [TIFF OMITTED] T8169.195
    
    [GRAPHIC] [TIFF OMITTED] T8169.196
    
    [GRAPHIC] [TIFF OMITTED] T8169.197
    
    [GRAPHIC] [TIFF OMITTED] T8169.198
    
    [GRAPHIC] [TIFF OMITTED] T8169.199
    
    [GRAPHIC] [TIFF OMITTED] T8169.200
    
    [GRAPHIC] [TIFF OMITTED] T8169.201
    
    [GRAPHIC] [TIFF OMITTED] T8169.202
    
    [GRAPHIC] [TIFF OMITTED] T8169.203
    
    [GRAPHIC] [TIFF OMITTED] T8169.204
    
    [GRAPHIC] [TIFF OMITTED] T8169.205
    
    [GRAPHIC] [TIFF OMITTED] T8169.206
    
    [GRAPHIC] [TIFF OMITTED] T8169.207
    
    [GRAPHIC] [TIFF OMITTED] T8169.208
    
    [GRAPHIC] [TIFF OMITTED] T8169.209
    
    [GRAPHIC] [TIFF OMITTED] T8169.210
    
    [GRAPHIC] [TIFF OMITTED] T8169.211
    
    [GRAPHIC] [TIFF OMITTED] T8169.212
    
    [GRAPHIC] [TIFF OMITTED] T8169.213
    
    [GRAPHIC] [TIFF OMITTED] T8169.214
    
    [GRAPHIC] [TIFF OMITTED] T8169.215
    
    [GRAPHIC] [TIFF OMITTED] T8169.216
    
    [GRAPHIC] [TIFF OMITTED] T8169.217
    
    [GRAPHIC] [TIFF OMITTED] T8169.218
    
    [GRAPHIC] [TIFF OMITTED] T8169.219
    
    [GRAPHIC] [TIFF OMITTED] T8169.220
    
    [GRAPHIC] [TIFF OMITTED] T8169.221
    
    [GRAPHIC] [TIFF OMITTED] T8169.222
    
    [GRAPHIC] [TIFF OMITTED] T8169.223
    
    [GRAPHIC] [TIFF OMITTED] T8169.224
    
    [GRAPHIC] [TIFF OMITTED] T8169.225
    
    [GRAPHIC] [TIFF OMITTED] T8169.226
    
    [GRAPHIC] [TIFF OMITTED] T8169.227
    
    [GRAPHIC] [TIFF OMITTED] T8169.228
    
    [GRAPHIC] [TIFF OMITTED] T8169.229
    
    [GRAPHIC] [TIFF OMITTED] T8169.230
    
    [GRAPHIC] [TIFF OMITTED] T8169.231
    
    [GRAPHIC] [TIFF OMITTED] T8169.232
    
    [GRAPHIC] [TIFF OMITTED] T8169.233
    
    [GRAPHIC] [TIFF OMITTED] T8169.234
    
                                    

</pre></body></html>
